       FISCAL YEAR 2008


 MEDICARE-ELIGIBLE RETIREE 

     HEALTH CARE FUND 


AUDITED FINANCIAL STATEMENTS 


                     October 31, 2008
                                            DoD 

MEDICARE-ELIGIBLE RETIREE 

   HEALTH CARE FUND 

     FISCAL YEAR 2008 

   AUDITED FINANCIAL 

       STATEMENTS 


                          Table of Contents

Management’s Discussion and Analysis .... .................................................... 1 


Principal Statements ...................................................................................... 12 


Notes to the Principal Statements ................. ................................................ 17 


Other Accompanying Information ............. ................................................... 36 


Independent Auditors’ Reports ................ ..................................................... 43 





                                                  i
           DoD 

MEDICARE-ELIGIBLE RETIREE 

   HEALTH CARE FUND 





MANAGEMENT DISCUSSION AND 

       ANALYSIS 





            1

                                                         Management’s Discussion And Analysis

                       DoD MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND

                            MANAGEMENT’S DISCUSSION AND ANALYSIS 


                               YEARS ENDED SEPTEMBER 30, 2008 AND 2007



Description of the Reporting Entity

The reporting entity is the Department of Defense (DoD) Medicare-Eligible Retiree Health Care Fund (the “Fund”
or MERHCF). The FY 2001 National Defense Authorization Act (NDAA) directed the establishment of the
Medicare-Eligible Retiree Health Care Fund to pay for Medicare-eligible retiree health care beginning on October 1,
2002. Prior to this date, care for Medicare-eligible beneficiaries was financed through annual Congressional
appropriations for space available care in Military Treatment Facilities (MTFs). The Fund covers Medicare-eligible
beneficiaries, regardless of age. In the context of the Fund, hereafter the term “Medicare-eligible beneficiaries” is
used to refer to Medicare-eligible beneficiaries who are related to retirees (i.e., retirees themselves, dependents of
retirees, and survivors).

The NDAA also established an independent three-member DoD Medicare-Eligible Retiree Health Care Board of
Actuaries appointed by the Secretary of Defense. The Board is required to review the actuarial status of the Fund; to
report annually to the Secretary of Defense, and to report to the President and the Congress on the status of the Fund
at least every four years. The DoD Office of the Actuary provides all technical and administrative support to the
Board.

Within DoD, the Office of the Under Secretary of Defense (OUSD) for Personnel and Readiness (P&R), through the
Office of the Assistant Secretary of Defense (OASD) for Health Affairs (HA) TRICARE Management Activity
(TMA), has as one of its missions operational oversight of the Defense TRICARE Health Delivery System,
including management of the Fund. TMA management responsibilities include accounting for, documenting, and
projecting annual budget distribution requirements (both purchased care claims demands and MTF prospective
payments for anticipated care provided in the direct care system), oversight of claims processors,
monitoring/management of the Improper Payments Information Act, and preparation of financial statements and
footnotes. The Defense Finance and Accounting Service (DFAS) provides accounting and investment services for
the Fund.

In Fiscal Year (FY) 2008, the Fund authorized approximately $8.4 billion (B) in total health care services, civilian
providers ($6.7B), military medical treatment facilities ($1.3B), and Military Service Personnel Accounts ($0.4B),
on behalf of Medicare eligible retirees, retiree dependents, and survivors.


In FY 2007, the Fund initially authorized approximately $7.7B in total health care services, civilian providers
($5.9B), military medical treatment facilities ($1.4B) and Military Service Personnel Accounts ($0.4B), on behalf of
Medicare eligible retirees, their dependents, and survivors. An additional purchased care requirement of $30M was
identified and approved by OMB in early September 2007 in support of increased utilization, particularly pharmacy
services, and $650 thousand for the mandatory mailing of letters to Medicare-eligible beneficiaries explaining the
availability and features of the Medicare Part D, Voluntary Pharmacy Benefit Program.




                                                          2

                                                         Management’s Discussion And Analysis

                               Final Fiscal Year Requirements and Funding Plan

                                               Operations &
                        Purchased Care                             Military Personnel
   Fiscal Year                                 Maintenance                               Final (Billions)
                          (Billions)                                   (Billions)
                                                (Billions)
       2008                  $6.7                 $1.3                       $.4                $8.4
       2007                  $5.9                 $1.4                       $.4                $7.7

The Fund receives income from three sources:
    1.	 An annual Treasury payment made on behalf of the Services at the beginning of the year based on average
        budgeted force strengths
    2.	 Annual payments from the Treasury to amortize the unfunded liability, and
    3.	 Investment income

During the last two years of the Fund’s operation, income was received from the following sources:

                                           MERHCF Funding Sources

                              Treasury Unfunded
                                                              Normal Cost
                              Actuarial Liability                                  Interest on Investments
      Fiscal Year                                             Contribution
                               (UAL) Payment                                              (Billions)
                                                               (Billions)
                                  (Billions)
         2008                       $12.9                        $11.5                       $8.2
         2007                       $15.6                        $11.5                       $4.4

No accounts of the Fund have been excluded from the Fund’s financial statements.

Medicare-Eligible Retiree Health Care Plan of Benefits

If beneficiaries age 65 and over cannot obtain care in a military medical treatment facility, they can receive
essentially no charge civilian care through the TRICARE for Life (TFL) program. With this program TRICARE
serves as the final payer for Medicare covered benefits, and first payer for TRICARE benefits that are not covered in
the Medicare or Other Health Insurance programs.

TFL covers Medicare-eligible retirees 65 years of age or older, including retired guardsmen and reservists and
Medicare-eligible family members and survivors. A beneficiary must be eligible for Medicare Part A and enrolled
in Medicare Part B. The Medicare-eligible retirees and family members of the non-DoD Uniformed Services (Coast
Guard, Public Health Service, and National Oceanic and Atmospheric Administration) are also eligible for these
benefits.

The TRICARE Senior Pharmacy Program authorizes eligible beneficiaries to obtain low-cost prescription
medications from the TRICARE Mail Order Pharmacy (TMOP) and TRICARE network and non-network civilian
pharmacies. Beneficiaries may also continue to use military hospital and clinic pharmacies, at no charge. The
pharmacy program is available to beneficiaries age 65 and over.

Finally, DoD beneficiaries, including Medicare-eligible beneficiaries, in specific locations where Designated
Provider Program (DPP), formerly the Uniformed Services Family Health Plan (USFHP), facilities are available,
may enroll in capitation rate plans. These plans include inpatient and outpatient services and a pharmacy benefit.
The capitation rate is paid by DoD. Beneficiaries who choose enrollment in these plans are ineligible for care in
MTFs as well as benefits under the TRICARE for Life and Senior Pharmacy programs.

Health Care Purchased From Civilian Providers

In accordance with Department of Defense Instruction (DoDI) 6070.2, “Department of Defense Medicare Eligible
Retiree Health Care Fund Operations”, dated July 19, 2002, the TMA reports daily obligations to the Fund for
purchased care provided in the civilian sector. Daily claims are validated by the voucher edit procedures required by


                                                         3

                                                        Management’s Discussion And Analysis

the TRICARE/CHAMPUS Automated Data Processing Manual 6010.50-M, dated May 1999, to ensure that only
costs attributable to Medicare-eligible beneficiaries are included in payments drawn from the Fund.

At the end of each month, claims processing costs are reconciled against monthly distribution estimates and any
over and/or under charged amounts are applied to the estimated requirement for the following month. During the
month of September, as fiscal year-end approaches, more frequent reconciliation between charged accounts and
available funds may occur and processing can continue up to a predetermined cut-off date established by TMA in
coordination with DFAS-Indianapolis (DFAS-IN).

TMA reports obligations to the Fund for the estimated DPP obligation amount based on the contract-specific
capitation rates for Medicare-eligible beneficiaries enrolled for each DPP hospital contract option period twice per
year, upon the commitment of funds and prior to the start of the option period. Each DPP hospital’s reported
enrollment is used to reconcile contracted enrollment estimates for Medicare-eligible beneficiaries. At the end of
each option period, total charges are reconciled against the estimate and any over and/or under charged amounts are
applied to the estimated requirement for the following option period.

At the beginning of each Fiscal Year, a new Funding Authorization Document (FAD) for the TFL/TRICARE Senior
Pharmacy purchased care expenditure limit is provided to the TMA Contract Resource Management (CRM)
Division. By agreement with DFAS-IN, disbursement transactions are provided by email the day prior to payment
processing. DFAS-IN uses these estimates to ensure sufficient funds are available for payment from the Fund for
daily transactions. The purchased care payments planned for FY 2008 were approximately $6.7B as compared to
$5.9B in FY 2007.

TMA uses a TRICARE Dual Eligible Fiscal Intermediary Contract (TDEFIC) awarded to Wisconsin Physician
Services (WPS) for purposes of processing all claims supported by the Fund, regardless of geographic region in
which care was received. Dual eligibility refers to health care users who are both DoD beneficiaries (retired,
dependents of retired, and survivors) and Medicare-eligible beneficiaries. Having a single Fiscal Intermediary (FI)
to process all dual-eligible claims ensures greater confidence in uniformity and consistency of claims adjudication.
Further, cost savings are realized with the claims administrative processing fees. The TDEFIC contract stipulates a
cost of $0.70 per unit for electronic claims and $3.66 for paper claims.

Payment For Health Care Provided In Military Medical Treatment Facilities (MTF)

TMA annually develops prospective payment amounts for care estimated to be provided in MTFs to Medicare-
eligible beneficiaries. The prospective payment amounts are calculated for each MTF and include both Military
Personnel (MILPERS) and Defense Health Program (DHP) Operations and Maintenance (O&M) costs. TMA
provides a memo to DFAS-IN with the payment amounts by Service for MILPERS and DHP O&M that is reported
on the Standard Form 1081, Voucher and Schedule of Withdrawals and Credits by DFAS-IN.

The prospective payment amounts are based on costs reported by the MTF’s Medical Expense and Performance
Reporting System (MEPRS) and patient encounter data for the most recent fiscal year for which data is complete at
the time the calculations are prepared. TMA develops, in coordination with the Military Departments and Office of
the Under Secretary of Defense Comptroller (OUSD(C)), MTF-specific rates in accordance with DoDI 6070.2,
dated July 19, 2002. MEPRS cost data are recorded separately for MILPERS and O&M components per clinical
workload. These amounts are inflated to the year of execution using Service-provided budget data, and standard
OMB inflation rates listed in the President’s Budget applicable to those years. MEPRS data are recorded and
maintained by the Military Departments in accordance with DoD 6010.13-M, “Medical Expense and Performance
Reporting System for Fixed Military Medical and Dental Treatment Facilities,” dated April, 2007.

OUSD(C) distributes MTF prospective payment amounts based on the calculated annual total program amount to
the Military Departments for MILPERS costs and to TMA for DHP O&M costs. TMA, in turn, distributes DHP
funds to the Military Departments for execution. OUSD(C) includes financial authority in the DHP Expense
Operating Budget to finance the annual financial plan requirement of the prospective payment.

When the year of execution is completed and the associated workload and cost data are available, TMA conducts an
execution review in coordination with OUSD(C) and the Military Departments. A comparison of prospective


                                                         4

                                                           Management’s Discussion And Analysis

payment amounts to actual workload and costs is accomplished in accordance with DoDI 6070.2, dated
July 19, 2002.

The prospective O&M payment for MTF provided care to Medicare-eligible beneficiaries in FY 2008 was $1.3B
versus $1.4B in FY 2007. The decrease in O&M expenditures was due to decreased utilization of inpatient,
outpatient, and outpatient pharmacy services. While the unit costs of inpatient and outpatient services have risen
slightly, utilization of these services has continued to decline at a greater rate. The prospective payment for
MILPERS expenditure for care provided in the MTFs to Medicare-eligible beneficiaries in FY 2008 was $0.40B
versus $0.42B in FY 2007.

Performance Measures

The mission of the Fund is to finance, on an actuarially sound basis, liabilities of the DoD and the uniformed
services health care programs for specific Medicare-eligible beneficiaries. There are many ways to measure the
funding progress of actuarially determined accrual funds. The ratio of assets in the Fund to the actuarial liability is a
commonly used fund ratio. As of September 30, 2008, the Fund had net assets available to pay benefits of $134.3B
and an actuarial liability of $500.2B; the funding ratio was 26.8%. As of September 30, 2007, the Fund had net
assets available to pay benefits of $109.6B and an actuarial liability of $516.5B; the funding ratio was 21.2%.
Notwithstanding the effect of other actuarial gains and losses that will occur over time, this ratio is expected to reach
100% once the initial unfunded liability is fully amortized in accordance with a schedule set by the Board of
Actuaries. The 50-year amortization period for the initial unfunded liability is scheduled to end in FY 2052.

Types of Investments

The Fund receives investment income from a variety of Treasury-based instruments such as bills, notes, bonds and
overnight investment certificates. Treasury bills are short-term securities with maturities of less than one year issued
at a discount. Treasury notes are intermediate securities with maturities of one to ten years. Treasury bonds are long-
term debt instruments with maturities of greater than ten years. Overnight certificates are interest-based market
securities purchased from the Treasury that mature the next business day and accrue interest based on the Federal
Reserve Bank of New York survey of reserve repurchase agreement rates.

The Fund also invests in Treasury Inflation Indexed Securities (TIIS) also known as Treasury Inflation Protected
Securities (TIPS), which are indexed for inflation. TIIS/TIPS are fixed-rate instruments designed to protect against
inflation, and the principal amount is indexed to the consumer price index (CPI) by adjusting the CPI at issuance to
the current CPI; as inflation increases, so does the principal amount and the interest received.

All of these instruments are debt obligations of the U.S Government and are backed by the “full faith and credit” of
the federal government. Debt obligations of the U.S. Government have virtually no risk of nonpayment of principal
and interest at the specified due date.

The Fund receives management oversight from the Department of Defense Investment Board established in
September 2003. The members of the Investment Board are the Director, Defense Finance and Accounting Service;
the Deputy Chief Financial Officer, Office of the Under Secretary of Defense (Comptroller); and a senior military
member, currently the Vice Chief of Naval Operations. The Board reviews the Fund’s Law and Department of
Treasury guidelines to ensure compliance with broad policy guidance and public law.

The Investment Board met in FY 2008, and considered investment objectives, policies, performance and strategies
with the goal of maximizing the Fund’s investment income and holding investments to maturity. The Board adopted
a new investment strategy which included:
   a.) Eliminate the “duration matching strategy” (matching assets to the duration of the liability), since it is not
feasible. The duration of the unfunded actuarial liability is 40+ years while the duration of the securities available to
invest is 24 years, at most.
   b.) Eliminate the average maturity of the portfolio. The MERHCF will use a ladder approach to TIPS investing
with total investment of funds not required for current year benefits broken into 90% TIPS in a 6-year ladder. The
remaining 10% is invested in conventional Treasury bills, notes, and bonds




                                                           5

                                                          Management’s Discussion And Analysis


Status of FY 2007 Audit Findings

Our independent auditors noted material weaknesses and other discrepancies during the conduct of the FY 2007
Financial Statement Audit. The material weaknesses center around two issues:

    1.	 The lack of a patient-level cost accounting system
    2.	 Insufficient evidence that adequate controls exist and have been implemented to ensure the timeliness and
        accuracy of the medical record coding processes at the MTFs

At issue with the lack of a patient-level cost accounting system is the fact that the actuarial liability for Medicare-
eligible retiree benefits as of September 30, 2008 and 2007 includes approximately $71B (14% of total) and $75B
(14% of total), respectively, of amounts reflecting the actuarial present value of the projected direct-care costs of
benefits to be provided by the MTFs to eligible participants in the Fund. Additionally, the reported amounts of
program revenues and cost for the year ended September 30, 2008, include approximately $3.3B and $1.7B,
respectively, and for the year ended September 30, 2007, include approximately $3.7B and $1.8B, respectively, of
amounts related to direct care costs. Such MTF-related amounts of direct-care costs are estimated by the Fund’s
actuaries using data extracted from various service-specific financial, personnel, and workload systems within DoD.
With respect to extracted data, the MTFs do not have compliant, transaction-based accounting systems and,
therefore, cannot report the costs of an individual patient’s care.

True patient-level cost accounting systems are currently not available within TRICARE. In lieu of such a system,
the DoD has developed the cost allocation tool, MEPRS, which enables MTFs to allocate all costs associated with
the daily operation of the facility into the inpatient, outpatient, dental, and ancillary service cost centers. Average
costs per weighted workload unit can then be computed for various patient care activities.

These average costs per weighted workload unit are then applied to specific care provided to specific patients by
reviewing the Standard Inpatient Data Record (SIDR) and Standard Ambulatory Data Record (SADR) reported in
the MHS Data Repository (MDR). The SIDRs and SADRs are prepared for each patient encounter and contain
patient-specific information, to include name, Social Security Number, sponsor or dependent status, and Medicare
eligibility. Further, the SIDRs and SADRs reflect the diagnosis and any procedures performed on the patient for
that specific encounter. The average costs per weighted workload unit computed in MEPRS is then applied against
the specific data contained in the SIDRs and SADRs to determine an average cost for the specific care provided to a
specific patient. Estimates of the weighted workload provided to Medicare-eligible beneficiaries are calculated for
each MTF based on historical experience. When the weighted workload costs are applied against the projected
workload volume for each MTF, a prospective payment distribution plan can be computed for each MTF for the
next fiscal year.

While inpatient and ambulatory encounter costs are weighted at the MTF level as described above, MTF outpatient
pharmacy costs represent the largest cost driver for the actuarial liability. The reconciliation tasks performed by
TMA management’s support contractor have also assessed and documented the operation of Pharmacy Data
Transaction Service (PDTS), data to support both the prospective payment and calculation of the actuarial liability.

The prospective payments made to the MTFs are reconciled with actual workload activity after the close of the fiscal
year. The results of the reconciliation are used to adjust projections of MTF workload levels and costs for the future
prospective payment distribution plan. The results of the reconciliation will not be used to make adjustments to the
current prospective payment distribution plan either during execution year activities or to a specific distribution
subsequent to the close of the fiscal year’s operation.

Issues with the prospective payment process include validating/reconciling financial data prior to its input into the
MEPRS cost allocation process, archiving MEPRS data at the close of each month, and reconciling in a timely
manner the fiscal year prospective payment plan.




                                                          6

                                                          Management’s Discussion And Analysis

Actions Taken

Since FY 2003, when the Fund was established, MERHCF management has attempted to resolve the auditor-
identified material weaknesses through the development of key milestone initiatives. These initiatives were
established and managed by TMA leadership and intended to serve as work-arounds to address the Military
Services’ financial systems’ deficiencies. The material weaknesses are associated with the computation of that
portion of the MERHCF health care liability involving the care provided to Medicare-eligible beneficiaries in the
MTFs.

Unfortunately, the milestone initiatives have not produced the desired results in the projected time frame. Clearly,
each of the Military Services must become more actively involved in the resolution of the identified weaknesses.
We have initiated coordination with the DoD Comptroller Financial Improvement and Audit Readiness (FIAR)
Office to engage the Military Services in better defining their required corrective actions and assuming more direct
responsibility in resolving the material weaknesses. Each of the Military Services will incorporate into their existing
FIAR plans key milestones to correct the auditor-identified deficiencies associated with medical record coding and
the accurate documentation of costs to support the delivery of health care to Medicare-eligible beneficiaries in
MTFs.

Computation of Incurred Claims Reserve

The actuarial determination of the Fund’s liability for Incurred But Not Reported (IBNR) claims for purchased care
for the Fund’s beneficiaries relies on data files provided by TMA to the DoD Office of the Actuary (OOA). Due to
the lack of a fully integrated financial management system to support the Defense Health System, certain data are
provided to the OOA from health care operational sources, rather than from the accounting and financial records of
claims payment activity.

The Contract Resource Management (CRM) Division in Aurora, Colorado, monitors claims processing activities
performed by the TDEFIC fiscal intermediary, WPS, in support of purchased care activities for Medicare-eligible
beneficiaries. To better monitor purchased care claims processing and mitigate the potential for an undetected large
increase in claims backlogs occurring in the future, MERHCF management has developed a quarterly purchased
care claims backlog metric to report to OUSD(C).

Each quarter the MERHCF estimates the IBNR purchased claims liability. IBNR represents health care received by
Medicare-eligible beneficiaries for which DoD has not yet received a claim. The purchased care claims processing
metric monitors the completeness of the data used for the IBNR liability calculation. The metric is calculated by
dividing the liability from claims on hand that is actually used in the IBNR calculation (without any backlogged
claims) by the liability that includes any claims backlogged at the time of the IBNR calculation.

By their nature, IBNR calculations need regular or typical data. The data does not necessarily have to be 100
percent complete, but must include a large percentage of claims included, and most importantly, the degree of
incompleteness should remain relatively constant over time.

The goal is to ensure the IBNR calculation is based upon no less than 85% of the liability contained on all processed
and backlogged claims. It is anticipated that 8% to 12% of available monthly claims will not be included in the
IBNR calculation due to the cutoff of processed claims by 10:00 am EST on the last business day of the month. The
cutoff was established to ensure IBNR calculations could be completed in time to meet reporting requirements. For
FY 2007 and again in FY 2008, the IBNR calculation included 100% of available monthly claims.

Legislative Proposals

The 2007 National Defense Authorization Act (NDAA) included several relevant sections concerning the
MERHCF. Section 592 of the Conference Report, “Revision in Government Contributions to Medicare-Eligible
Retiree Health Care Fund,” excluded from the term “members of the uniformed services on active duty” cadets at
the United States Military Academy, the United States Air Force Academy, or the Coast Guard Academy or
Midshipmen at the United States Naval Academy. This change (with other things being equal), will reduce the
Board of Actuaries annually calculated normal cost contribution and the health care liability. The elimination of


                                                          7

                                                         Management’s Discussion And Analysis

cadets and midshipmen from the calculation of the active duty portion of the normal cost contribution and the health
care liability took effect beginning with FY 2008.

Section 708(b) of the 2007 NDAA Conference Report directed the Secretary of Defense to transfer $186M from the
un-obligated balances of the National Defense Stockpile Transaction Fund to the DoD Medicare-Eligible Retiree
Health Care Fund.

Section 703 of the 2008 NDAA states that any prescription filled on or after 28 January 2008 through the TRICARE
Retail Pharmacy Network shall be treated as an element of the DoD for purposes of procurement of drugs by Federal
agencies. The Veterans Health Care Act of 1992, established the Federal Ceiling Prices (FCPs) of covered
pharmaceuticals requiring a minimum 24% discount off non-federal average manufacturing prices. Since the
beginning of the FCP program, outpatient pharmaceuticals provided by DoD through MTF pharmacies have been
subject to FCPs, as have those under the TMOP program since it began. This legislation addresses the disparity with
the retail pharmacy program. It is envisioned the new rule will stipulate that an agreement by a manufacturer to
honor the FCP in the Retail Pharmacy Network component of the Pharmacy Benefit Program is a condition of
inclusion of a drug on the uniform formulary. A drug not under such an agreement will require preauthorization to
be provided through the Retail Pharmacy Network.

DoD estimates MERHCF cost reductions from applying FCPs to the Retail Pharmacy Program of $367 million in
FY 2009, growing to $444 million in FY 2011.

Given that the final DoD policy guidance has not yet been published, and that further litigation may be possible, the
MERHCF Board of Actuaries decided at the July 2008 Board meeting to apply only half the estimated savings to the
MERHCF actuarial liability to the FY 2008 calculation of the liability. As a result, the conservative impact of this
legislation is a reduction of $35.3 billion on the MERHCF actuarial health care liability.

Voluntary Agreements for TRICARE Retail Network Rebates (VARRs)

TMA initiated a new retail pharmacy rebate program during the 2nd Quarter, FY 2007, Voluntary Agreements for
TRICARE Retail Network Rebates (VARRs). Manufacturers may offer rebates to the DoD for pharmaceutical
agents dispensed through the TRICARE Retail pharmacy network. There are two types of VARRs.

        1.	 The Uniform Formulary VARR (UF-VARR) is contingent upon pharmaceutical agents being
            included on the 1st (generic drugs) or 2nd (formulary brand drugs) tiers of the DoD Uniform Formulary.
        2.	 The Utilization VARR (VARR (Utilization)) is based solely on utilization of the pharmaceutical
            agent(s) dispensed through the TRICARE Retail Pharmacy Network. There is no association between
            formulary placement and an offer of a rebate. The rebates will apply to all prescriptions dispensed for
            the National Drug Class (NDC) listed on an accepted VARR to a DoD beneficiary through the
            TRICARE Retail Pharmacy Network.

As of September 30, 2008, the MERHCF received a total of $110.5M in pharmacy retail network rebates under both
VARR programs. In FY 2007, receipts from both VARR programs were $15.9M.

Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results of operations for
the MERHCF pursuant to the requirements of the Chief Financial Officers (CFO) Act of 1990. While the statements
have been prepared from the books and records of the MERHCF in accordance with the Generally Accepted
Accounting Principles (GAAP) for Federal entities and the formats prescribed by OMB, these statements are in
addition to the financial reports used to monitor and control budgetary resources which are prepared from the same
books and records. The statements should be read with the realization they are for a component of the U.S.
Government, a sovereign entity.




                                                         8

                                                              Management’s Discussion And Analysis

 Comparative Financial Data

 The following table presents comparative financial statement information for the MERHCF.

                                      Medicare-Eligible Retiree Health Care Fund
                                          Analysis of Financial Statements
                                   for the years ended September 30, 2008 and 2007
                                                    ($ in Thousands)
                                                                                                      Difference
               Consolidated Balance Sheet                             2008           2007              Increase/
                                                                                                      (Decrease)
Investments (Intra-Governmental Securities)
- Revenue from Treasury payments and Service                                                             $24,742,599
                                                                   $134,291,659   $109,549,060
contributions excess to current year health care benefit                                                        23%
payments is invested in Treasury securities
Liabilities Not Covered by Budgetary Resources
                                                                                                       ($40,770,364)
  - Represents difference between actuarial liability for          $368,254,642   $409,025,006
                                                                                                                10%
future benefit payments and current assets
Accounts Payable (Intra-Governmental)
                                                                                                             ($8,890)
- A/P associated with resupply of TMOP contractor drug                 $61,386         $70,276
                                                                                                               (13%)
inventory by DLA
Accounts Payable (Non-Federal)                                                                              ($47,932)
                                                                      $138,429       $186,361
                                                                                                               (26%)
Military Retirement and Other Federal Employment
Benefits                                                                                               ($16,283,519)
                                                                   $500,195,710   $516,479,229
  - Represents actuarial liability of future health care                                                        (3%)
benefit

                  Statement of Net Cost
Net costs of operation
- Changes in computation of actuarial health care liability                                             ($4,398,130)
                                                                    $41,086,980    $45,485,110
are the major contributor to changes in net costs of                                                          (10%)
operation

          Statement of Budgetary Resources
Undelivered orders                                                                                     ($71,849,514)
                                                                    $40,286,055   $112,135,569
                                                                                                              (64%)

 Investments – Intra-Governmental Securities

 Total Intra-governmental Securities, Net Investments, for MERHCF increased $24.7 billion, 23%. This increase is
 the result of investing annual contributions from the U.S. Treasury and the Uniformed Services (Army, Navy, Air
 Force, Marine Corps, U.S. Public Health Service, National Oceanographic and Atmospheric Administration, and the
 U.S. Coast Guard) net of current disbursements for benefits paid. Investment of these funds has a cumulative effect
 with an expectation that invested balances will continue growing to cover the unfunded portions of future benefits.

 Liabilities Not Covered by Budgetary Resources

 Total liabilities Not Covered by Budgetary Resources decreased $40.8 billion, (10%). This variance is comprised
 primarily of the increase in assets added to the decrease in the actuarial liability. The increase in assets of $24.7
 billion was largely attributable to the receipt of annual contributions from the U.S. Treasury and Uniformed Services
 during the 1st Quarter, FY 2008. The decrease in the actuarial liability of $16.3 billion was caused by changes in
 two key economic assumptions and the addition of a new assumption. See section below on “Military Retirement
 and Other Federal Employment Benefits”, for additional information about the change in the actuarial liability.




                                                              9

                                                          Management’s Discussion And Analysis

Accounts Payable (Intra-Governmental)

Intra-Governmental Accounts Payables decreased $8.9 million, (13%), primarily due to a reduction in the number of
prescriptions processed by the contractor in September 2008 compared to September 2007. The MERHCF intra-
governmental accounts payable are directly related to the Defense Logistics Agency’s (DLA) replenishment of the
contractor’s drug inventory. The replenishment of the contractor’s inventory creates an accounts receivable for
DLA and an accounts payable for MERHCF. Therefore, a decrease in the replenishment requirements correlates to
a decrease in MERHCF accounts payable.

Accounts Payable (Non-Federal)

Non-federal Payables (to the Public) decreased $47.9 million, (26%), primarily due to an early cut-off in September
2008 of 7 days for the processing of pharmacy claims. The cut-off was initiated by the pharmacy contractor,
Express Scripts, who processes claims once every 2 weeks. As a result, fewer claims were processed resulting in a
reduction of accounts payable.

Military Retirement and Other Federal Employment Benefits

The total Military Retirement and Other Federal Employment Benefits decreased $16.3 billion, (3%) due to the
decrease in the FY 2008 actuarial liability. This decrease is due to changes in assumptions, a new assumption, and
actuarial experience (expected versus actual) resulting in a $49.2 billion decrease offset by the expected increase in
the actuarial liability of $32.9 billion (growth due to service and interest, liability released through benefit
payments). Changes in two key assumptions and the addition of a new assumption comprise most of the decrease.
The two key assumption changes were a 0.25% reduction in the discount rate (which led to a $30.6 billion increase)
and revised medical trend rates (which led to a $43.9 billion decrease). A new assumption was added to reflect
mandated federal ceiling prices for retail prescription drugs (which led to a $35.3 billion decrease).

Statements of Net Cost

The Net Cost of Operations decreased $4.4 billion, (10%). This decrease is primarily due to a decrease of $16.3
billion in the actuarial liability affecting current year costs. The major component of MERHCF total cost is the
change in the actuarial liability. The September 30, 2007, decrease in liability was $21.5 billion. Factors impacting
the change are discussed in the “Military Retirement Benefits and Other Federal Employment Benefits section

Statements of Budgetary Resources

The Net Amount of Budgetary Resources Obligated for Undelivered Orders decreased $71.8 million, (64%). This
variance was primarily due to de-obligations of outstanding projected annual enrollment fees for the U.S. Family
Health Plan (USFHP). Throughout fiscal year 2008, a reconciliation performed on the obligations for the USFHP
resulted in the closure of obligation lines for completed contracts. The USFHP is an alternative health care delivery
plan offered in limited locations by private health care companies (similar to health maintenance organizations)
which provide full health care services to enrolled beneficiaries. The MERHCF pays the annual enrollment fees for
the Medicare-eligible beneficiaries. This enrollment requires the beneficiaries to obtain all health care from the
USFHP facility.

Internal Controls Over Financial Reporting and on Compliance with Other Matters

During an independent audit of the Fund’s financial statements, the auditor identified deficiencies related to the
internal control over the preparation, analysis, and monitoring of financial information to support the efficient and
effective preparation of financial statements. Because of these deficiencies, the auditor believes the Fund’s financial
management system does not meet the requirements of an integrated financial management system as defined in
OMB Circular A-127, with respect to consistent internal control over data entry, transaction processing and
reporting. Further, the auditor believes the Fund is not in compliance with the system design requirements sufficient
to comply with internal and external reporting requirements, including, as necessary, the requirements for financial
statements prepared in accordance with the form and content prescribed by OMB and reporting requirements
prescribed by Treasury, and to monitor the financial management system to ensure integrity of financial data.



                                                          10

                                                       Management’s Discussion And Analysis


More detailed discussion of the auditors findings on internal controls can be found in the “Independent Auditors’
Report on Internal Control Over Financial Reporting and on Compliance and Other Matters Based Upon the Audit
Performed in Accordance with Government Auditing Standards.”




                                                       11

                                               DoD 

     MEDICARE-ELIGIBLE RETIREE 

        HEALTH CARE FUND 





              PRINCIPAL STATEMENTS 





The accompanying notes are an integral part of these statements

                                                          12
                                                                                 Principal Statements

                                            Department of Defense
                                 Medicare-Eligible Retiree Health Care Fund
                                             BALANCE SHEETS
                              For the Years Ended September 30, 2008, and 2007
                                               (In Thousands)

                                                                                 2008             2007
 ASSETS

        Intragovernmental:
           Fund Balance with Treasury (Note 2)                         $       5,000       $       5,000
           Investments (Note 3)                                          134,291,659         109,549,060
           Total Intragovernmental Assets                              $ 134,296,659       $ 109,554,060

     Accounts Receivable, Net (Note 4)                                        12,486              10,393
 TOTAL ASSETS                                                          $ 134,309,145       $ 109,564,453

 LIABILITIES

        Intragovernmental:
           Accounts Payable (Note 6)                                   $          61,387   $       70,276
        Total Intragovernmental Liabilities                            $          61,387   $       70,276

     Accounts Payable (Note 6)                                                  138,429            186,361
     Military Retirement Benefit Liabilities (Notes 5 and 7)               500,195,710         516,479,229
     Benefits Due and Payable (Note 7)                                         623,470             625,418
 TOTAL LIABILITIES                                                     $   501,018,996     $   517,361,284


 NET POSITION

   Cumulative Results of Operations – Earmarked Funds                  $ (366,709,851)     $ (407,796,831)
 TOTAL NET POSITION                                                    $ (366,709,851)     $ (407,796,831)

 TOTAL LIABILITIES AND NET POSITION                                    $   134,309,145     $   109,564,453




The accompanying notes are an integral part of these statements

                                                               13
                                                                               Principal Statements


                                              Department of Defense
                                   Medicare-Eligible Retiree Health Care Fund
                                         STATEMENTS OF NET COST
                                For the Years Ended September 30, 2008, and 2007
                                                 (In Thousands)
                                                                                2008              2007
    PROGRAM COSTS
      Gross Costs                                                       $    (8,429,788)   $   (13,945,803)
      Less: Earned Revenue                                              $   (32,657,192)   $   (31,539,307)


            Net Program Costs                                           $   (41,086,980)   $   (45,485,110)



  NET COST OF OPERATIONS                                                $   (41,086,980)   $   (45,485,110)




Additional information included in Note 8.


The accompanying notes are an integral part of these statements

                                                                14 

                                                                               Principal Statements



                                               Department of Defense
                                    Medicare-Eligible Retiree Health Care Fund
                                STATEMENTS OF CHANGES IN NET POSITION
                                 For the Years Ended September 30, 2008, and 2007
                                                  (In Thousands)

                                                                                    2008               2007
 CUMULATIVE RESULTS OF OPERATIONS
 Beginning Balances                                                       $ (407,796,831)      $ (453,467,941)

 Budgetary Financing Sources

 Transfers In/Out Without Reimbursement                                   $                0   $       186,000
 Other Financing Sources                                                                   0                 0
 Total Financing Sources                                                  $                0   $       186,000

 Net Cost of Operations (+/-)                                             $   (41,086,980)     $    (45,485,110)
 Net Change                                                               $    41,086,980      $     45,671,110

 Cumulative Results of Operations                                         $ (366,709,851)          (407,796,831)

 Unexpended Appropriations, Beginning Balance                             $                0   $              0
 Budgetary Financing Sources                                                               0                  0
 Total Unexpended Appropriations                                          $                0   $              0




 Net Position                                                             $ (366,709,851)      $ (407,796,831)




The accompanying notes are an integral part of these statements

                                                                15 

                                                                              Principal Statements


                                             Department of Defense
                                  Medicare-Eligible Retiree Health Care Fund
                               STATEMENTS OF BUDGETARY RESOURCES
                               For the Years Ended September 30, 2008, and 2007
                                                (In Thousands)

                                                                                  2008              2007
 BUDGETARY RESOURCES
 Unobligated balance, brought forward, October 1                       $                 0    $             0
 Budget authority
   Appropriation                                                              32,270,819          31,200,621
   Subtotal                                                            $      32,270,819 $         31,200,621
 Nonexpenditure transfers, net, anticipated and actual                                 0              186,000
 Temporarily not available pursuant to Public Law                            (24,484,897)         (23,810,932)
 Total Budgetary Resources                                             $       7,785,922 $          7,575,689

 STATUS OF BUDGETARY RESOURCES
 Obligations incurred:
   Direct                                                              $          7,785,922   $     7,575,689
   Subtotal                                                            $          7,785,922   $     7,575,689
 Unobligated balance:
   Apportioned                                                                            0                 0
   Subtotal                                                            $                  0   $             0
 Unobligated balance not available                                                        0                 0
 Total status of budgetary resources                                   $          7,785,922   $     7,575,689

 CHANGE IN OBLIGATED BALANCE
 Obligated Balance, net
    Unpaid obligations, brought forward, October 1                     $         368,773 $            397,172
    Total unpaid obligated balance, net                                $         368,773 $            397,172
 Obligations incurred net (+/-)                                                7,785,922            7,575,689
 Less: Gross outlays                                                          (7,914,594)          (7,604,088)
 Obligated balance, net, end of period
    Unpaid obligations                                                             240,101           368,773
    Total unpaid obligated balance, net, end of period                 $           240,101    $      368,773



 NET OUTLAYS
 Net Outlays
   Gross Outlays                                                       $      7,914,594       $     7,604,088
   Less: Distributed Offsetting Receipts                                    (20,774,860)          (19,653,179)

 Total Outlays                                                         $    (12,860,266)      $   (12,049,091)

 Additional information included in Note 10.



The accompanying notes are an integral part of these statements

                                                               16 

           DoD 

MEDICARE-ELIGIBLE RETIREE 

   HEALTH CARE FUND 

          FUND





      NOTES TO THE 

  PRINCIPAL STATEMENTS 





             17 

                                                                    Notes to the Principal Statements

                       DoD MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND

                             NOTES TO THE PRINCIPAL STATEMENTS 

                        FOR THE YEARS ENDED SEPTEMBER 30, 2008, AND 2007


NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
A. Basis of Presentation. These financial statements report the financial position and results of operations for the
Fund, as required by the Chief Financial Officers (CFO) Act of 1990, expanded by the Government Management
Reform Act (GMRA) of 1994, and other appropriate legislation. The financial statements have been prepared from
the books and records of the Trust Fund Accounting Division, Department of Defense (DoD) Audited Financial
Statements and Trust Funds Directorate, Corporate Accounting, Standards and Compliance, Defense Finance and
Accounting Service (DFAS), in accordance with the requirements of Office of Management and Budget (OMB)
Circular No. A-136, “Financial Reporting Requirements,” as revised, and accounting principles generally accepted
in the United States of America. The Fund’s financial statements are prepared by DFAS in addition to the financial
reports, pursuant to OMB directives, which are used to monitor and control budgetary resources within the Fund.
More detailed explanations of these financial statement elements are discussed in applicable footnotes. The
financial statements account for all resources for which the Fund is responsible, unless otherwise noted.
B. Mission of the Reporting Entity. The mission of the DoD Medicare-Eligible Retiree Health Care Fund (the Fund
or MERHCF) is to accumulate funds in order to finance, on an actuarially sound basis, liabilities of health care
programs for DoD Military Services and other Uniformed Services. The MERHCF provides benefits for a
Medicare-eligible member of a participating Military Service or other Uniformed Service entitled to retired or
retainer pay and such member’s Medicare-eligible dependents or survivors.

C. Appropriations and Funds . Public Law 106-398, The Floyd D. Spence National Defense Authorization Act for
Fiscal Year 2001, authorized MERHCF and provided a permanent, indefinite appropriation. Permanent authority
becomes available based upon standing provisions of law without any further legislative action by the Congress after
transmittal of the budget for each year. The law does not specify an amount of budget authority for the indefinite
appropriation; however, the law does specify a variable factor that determines the amount available until expended.

Using methods and assumptions approved by the DoD MERHCF Board of Actuaries, the DoD Office of the Actuary
determines the amount of the contribution to the MERHCF. The contribution consists of two parts: a U.S. Treasury
warrant for the amortization payment of the original unfunded liability and an annual contribution from each
Uniformed Service: Army, Navy, Air Force, Marine Corps, U.S. Coast Guard, Public Health Service, and the
National Oceanic and Atmospheric Administration. Funds from the contributions that exceed the amounts required
to pay current year expenses are invested. Those investments, at maturity, and their associated interest revenues will
be used to cover future liabilities of the MERHCF.


The MERHCF is a special fund. The funds in MERHCF are used, in compliance with the law, to provide benefits
for a Medicare-eligible member of a participating Military Service or other Uniformed Service entitled to retired or
retainer pay and such member’s Medicare-eligible dependents or survivors.

The MERHCF funds are designated as earmarked funds. Earmarked funds are financed by specifically identified
revenues; are required by statute to be used for designated activities, benefits, or purposes; and remain available over
time. Earmarked funds also have a requirement to account for and report on the receipt, use, and retention of
revenues and other financing sources that distinguish such funds from general revenues.

D. Basis of Accounting. Under authority of the CFO Act of 1990, the Federal Accounting Standards Advisory
Board (FASAB) was established to recommend Federal Accounting Standards to its three principal members, the
Secretary of the Treasury, the Director of the OMB, and the Comptroller General of the United States. The
Statements of Federal Financial Accounting Standards (SFFAS) have been issued by the FASAB, following
procedures adopted by the FASAB principles. Some SFFAS have deferred effective dates.
For FY 2008, the financial feeder systems used by MERHCF did not meet all of the requirements for full accrual
accounting. These systems were designed and implemented before the issuance of generally accepted accounting



                                                          18 

                                                                  Notes to the Principal Statements

principles (GAAP) for Federal agencies and were not designed to collect and record financial information on the full
accrual basis as required by GAAP. When necessary, MERHCF and DFAS have established manual controls to
work around these system issues. For example, the accounting system used by MERHCF does not record
information on a budgetary basis. Instead, the reporting system derives the budgetary account balances from
information contained in the proprietary accounts.

For FY 2008, the financial feeder systems used by MERHCF did not meet all of the requirements for full accrual
accounting. These systems were designed and implemented before the issuance of GAAP for Federal agencies and
were not designed to collect and record financial information on the full accrual basis as required by GAAP. When
necessary, MERHCF and DFAS have established manual controls to work around these system issues. For
example, the accounting system used by MERHCF does not record information on a budgetary basis. Instead, the
reporting system derives the budgetary account balances from information contained in the proprietary accounts.

The DoD has undertaken efforts to determine the actions required to bring its financial and nonfinancial feeder
systems and processes into compliance with GAAP. One such action is the current revision of its accounting
systems to record transactions based on U.S. Standard General Ledger. Until all of MERHCF’s financial and
nonfinancial feeder systems and processes are updated to collect and report financial information as required by
GAAP, MERHCF’s financial data will be derived from transactions from noncompliant feeder systems, information
from the proprietary accounts, and accruals made for major items such as accounts receivable and accounts payable.

In April 2000, the American Institute of Certified Public Accountants (AICPA), in its Statement on Auditing
Standards (SAS) No. 69, “The Meaning of Present Fairly in Conformity with Generally Accepted Accounting
Principles (GAAP) in the Auditor’s Report,” as amended by SAS No. 91, “Federal GAAP Hierarchy,” established
the following hierarchy of accounting principles for federal government entities

        (A) FASAB Statements and Interpretations plus AICPA and Financial Accounting Standards Board)
        pronouncements if made applicable to Federal governmental entities by a FASAB Statement or
        Interpretation;

        (B) FASAB Technical Bulletins and the following pronouncements if specifically made applicable to
        Federal governmental entities by the AICPA and cleared by the FASAB: AICPA Industry Audit and
        Accounting Guides and AICPA Statement of Position;

        (C) AICPA Accounting Standards Executive Committee Practice Bulletins, if specifically made applicable
        to Federal governmental entities and cleared by the FASAB and Technical Releases of the Accounting and
        Auditing Policy Committee of the FASAB; and

        (D) Implementation guides published by the FASAB staff and practices that are widely recognized and
        prevalent in the Federal government.

In the absence of a pronouncement covered by Federal GAAP or another source of established accounting
principles, the auditor of a federal government entity may consider other accounting literature, depending on its
relevance to the circumstance. When directed by OMB, through OMB Circular No. A-136, generally accepted
accounting principles in the United States of America serve as authoritative guidance for federal agencies in
preparing reports that are addressed within the Circular.
E. Revenues and Other Financing Sources. Financing sources for the MERHCF are provided primarily through the
annual contributions from the Military Services and other Uniformed Services made at the beginning of each fiscal
year; a U.S. Treasury warrant, made at the beginning of each fiscal year, for annual amortization of the unfunded
liability; and interest earned on investments.

F. Recognition of Expenses. For financial reporting purposes, the MERHCF recognizes benefit expenses in the
period incurred. However, because MERHCF’s financial feeder systems were not designed to collect and record
financial information on the full accrual basis, accrual adjustments are made for major items such as accounts
receivable and accounts payable.




                                                        19 

                                                                     Notes to the Principal Statements

G. Accounting for Intragovernmental Activities. The MERHCF purchases and redeems non-marketable market-
based securities issued by the United States Treasury, Bureau of the Public Debt (BPD). Non-marketable market-
based securities include Treasury bills, notes, bonds, Treasury Inflation-Protected Securities (TIPS), and overnight
certificates.

Preparation of reliable financial statements requires the elimination of transactions occurring among entities within
DoD or between two or more federal agencies. Seller entities within DoD provide summary seller-side balances for
revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In most
cases, the buyer entities adjust their records to agree with DoD seller-side balances. Intra-DoD balances are then
eliminated. The MERHCF is able to reconcile its buyer/seller transactions. The DoD is developing long-term
system improvements to ensure accurate intra-governmental information, to include sufficient up-front edits and
controls, eliminating the need for after-the-fact reconciliations.

The U.S. Treasury Financial Management Service is responsible for eliminating transactions between DoD and
other Federal agencies. The Treasury Financial Manual, Part 2 – Chapter 4700, Agency Reporting Requirements for
the Financial Report of the United States Government, and the U.S. Treasury’s Federal Intragovernmental
Transactions Accounting Policy Guide provide guidance for reporting and reconciling intra-governmental balances.
The MERHCF is able to reconcile balances pertaining to investments in federal securities.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The
Federal Government does not apportion debt and its related costs to Federal Agencies. The DoD’s financial
statements, therefore, do not report any portion of the public debt or interest thereon, nor do the statements report the
source of public financing whether from issuance of debt or tax revenues.

H. Funds with the U.S. Treasury. The U.S. Treasury allows the MERHCF to be fully invested. Therefore, the Fund
Balance with Treasury (FBWT) may be zero during various quarters of the fiscal year. However, precautions are
taken to prevent abnormal balances at Treasury.

The MERHCF’s financial resources are maintained in U.S. Treasury Accounts. The DFAS processes all MERHCF
receipts and adjustments. The DFAS prepares monthly reports, which provide information to the U.S. Treasury on
transfers and deposits.

In addition, DFAS submits reports to Treasury, by appropriation, on interagency transfers, collections received, and
disbursements issued. The Treasury then records this information to the FBWT account maintained in the Treasury
system. The MERHCF-recorded balance in the FBWT account and U.S. Treasury’s FBWT accounts must balance
monthly.
I. Accounts Receivable. As presented in the Balance Sheets, accounts receivable includes accounts, claims, and
refunds receivable from the public as well as intragovernmental receivables due from the Uniformed Services.
Allowances for uncollectible accounts due from the public are based upon analysis of collection experience by the
Fund. The MERHCF does not recognize an allowance for estimated uncollectible amounts due from
intragovernmental receivables. Claims against these agencies are to be resolved between the agencies in accordance
with dispute resolution procedures defined in the Intragovernmental Business Rules published in the “Treasury
Financial Manual.”
J. Investments in U.S. Department of Treasury Securities. Intergovernmental securities represent non-marketable
market-based securities issued by the U.S. Department of Treasury, BPD. These securities are redeemable at market
value exclusively through the Federal Investment Branch of Treasury. These non-marketable market-based
Treasury securities are not traded on any securities exchange, but mirror the prices of marketable securities with
similar terms. The MERHCF’s intent is to hold investments to maturity, unless they are needed to finance claims or
otherwise sustain operations. Consequently, there is no provision for unrealized gains or losses on these securities.
The MERHCF receives interest semiannually on the value of its marketable, market-based securities from the U.S.
Treasury. Investments are recorded at amortized cost on the Balance Sheet. Material disclosures are provided at
Note 3.
K. Net Position. Net position consists of cumulative results of operations and unexpended appropriations.
Cumulative results of operations represent the net difference, since the inception of an activity, between the net cost



                                                           20 

                                                                    Notes to the Principal Statements

of operations and financing sources. Effective FY 2002, when the Fund began operations, the cumulative results
also include transfers in and out of assets without reimbursement.
Unexpended Appropriations represent the amounts of authority that are unobligated and have not been rescinded or
withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments
have not been incurred. The MERHCF does not report unexpended appropriations because these amounts are not
applicable.
L. Comparative Data. For comparative purposes, the financial statements display both FY 2007 and FY 2008 data.

M. Unexpended Obligations. The MERHCF obligates funds to provide goods and services; some of which are not
yet delivered. The financial statements do not reflect this liability for payment for goods and services not yet
delivered, unless title passes. Unexpended obligations include (1) obligations for which goods and services have
been delivered (title passed) and a liability recognized and (2) obligations for which no delivery has occurred and no
liability recognized. The balance of unexpended obligations appears immediately before net outlays in the
Statement of Budgetary Resources and is referred to as “Total unpaid obligated balances, net, end of period.”

N. Estimates. The preparation of financial statements in conformity with accounting principles generally accepted
in the United States of America requires management to make estimates and assumptions that affect the reported
amounts of assets, liabilities and changes therein, and the actuarial present value of accumulated plan benefits at the
date of the financial statements. Actual results could differ from those estimates.

O. Actuarial Information. The MERHCF financial statements present the unfunded actuarial liability determined as
of the end of the fiscal year based on population information as of the beginning of the year and updated to the end
of the year using accepted actuarial techniques. The “projected benefit obligation” method is used as required by
SFFAS No. 5, “Accounting for Liabilities of the Federal Government.”

NOTE 2. FUND BALANCES WITH TREASURY (FBWT)

($ In Thousands)                                                                     FY 2008             FY 2007

Fund Balance
Total Special Funds                                                            $          5,000    $          5,000


Status of Fund Balance with Treasury

Unobligated Balance -Unavailable                                               $  132,564,539      $  108,079,641
Obligated Balance not yet Disbursed                                                   240,101             368,773
Non-FBWT Budgetary Accounts                                                      (132,799,640)       (108,443,414)
Total                                                                          $        5,000      $        5,000


Fund Balances. Generally, the FBWT is maintained at approximately $5.0 million to ensure that sufficient funds
are available to cover estimated daily disbursements with the remaining funds invested in non-marketable market-
based securities.

Status of Fund Balance with Treasury (FBWT). This status reflects the budgetary resources to support the
FBWT.

Unobligated Balance. The Unobligated Balance represents the cumulative amount of budgetary authority that has
not been set aside to cover outstanding obligations. Certain unobligated balances are restricted for future use and are
not apportioned for current use. These unobligated balances, which are classified to show the available and
unavailable amounts, are related to trust fund accounts which are restricted by the public laws that established the
funds. These balances become available subsequently without appropriations actions. The MERHCF manager




                                                          21 

                                                                   Notes to the Principal Statements

records the funds and invests the trust fund receipts with the U.S. Department of Treasury, BPD. These investments
are redeemed as funds are needed.

Obligated Balance not yet Disbursed. This amount represents funds that have been obligated for goods that have
not been received, services that have not been performed, and goods and services that have been delivered/received
but not yet paid. The MERHCF balance represents amounts payable to the Defense Logistics Agency (DLA) for
purchases of pharmaceuticals, to private contractors waiting for DLA to replenish the pharmaceutical supply, and to
private hospitals for medical services rendered.

Non-FBWT Budgetary Accounts. These amounts represent adjustments to budgetary accounts that do not affect
FBWT, such as contract authority, borrowing authority, and investment accounts. This category reduces the Status
of FBWT. The MERCHF balance represents investment accounts.

NOTE 3. INVESTMENTS

($ In Thousands)                                               FY 2008
                                                                   Amortized                              Market
                                            Amortization          (Premium)/         Investments           Value
                                Cost          Method                Discount             Net             Disclosure
Intragovernmental
Securities:

     Non Marketable,                           Effective
     Market-Based        $   135,483,350        Interest       $   (2,683,711)   $    132,799,639   $   127,002,399

Subtotal                 $   135,483,350                       $   (2,683,711)   $    132,799,639   $   127,002,399

Interest Receivable            1,492,020                                     0          1,492,020         1,492,020
Total Investments        $   136,975,370                       $   (2,683,711)   $    134,291,659   $   128,494,419

($ In Thousands)                                               FY 2007
                                                                   Amortized                              Market
                                            Amortization          (Premium)/         Investments,          Value
                                Cost          Method                Discount             Net             Disclosure
Intragovernmental
Securities:

     Non Marketable,                           Effective
     Market-Based        $   110,206,344        Interest       $   (1,762,930)   $    108,443,414   $   106,692,773

Subtotal                 $   110,206,344                       $   (1,762,930)   $    108,443,414   $   106,692,773

Interest Receivable      $     1,105,646                       $             0   $      1,105,646   $     1,105,646
Total Investments        $   111,311,990                       $   (1,762,930)   $    109,549,060   $   107,798,419


Investments, Net, increased $24.7 billion (23%). This increase is the result of investing annual contributions from
the U.S. Treasury and the Uniformed Services (Army, Navy, Air Force, Marine Corps, U.S. Public Health Service,
National Oceanic and Atmospheric Administration, and the U.S. Coast Guard) net of current disbursements for
benefits paid. Investment of these funds has a cumulative effect with an expectation that invested balances will
continue growing to cover the unfunded portions of future benefits.

The Federal Government does not set aside assets to pay future benefits and expenditures associated with earmarked
funds. The cash generated from earmarked funds are deposited in the U.S. Treasury, which uses the cash for general
government purposes. The U.S. Treasury issues securities to the earmarked funds as evidence of earmarked fund



                                                        22 

                                                                     Notes to the Principal Statements

receipts. The U.S. Treasury securities are issued to the earmarked funds as evidence of earmarked fund receipts.
The U.S. Treasuries are an asset to the MERHCF and a liability to the U. S. Treasury. Because the MERHCF and
U.S. Treasury are both parts of the Federal Government, these assets and liabilities offset each other from the
standpoint of the Federal Government as a whole. For this reason, they do not represent an asset or a liability in the
U.S. Government-wide financial statements. The U.S. Treasury securities provide the MERHCF with authority to
draw upon the U.S. Treasury to make future benefit payments or other expenditures. When the MERHCF requires
redemption of these securities to make expenditures, the Federal Government finances the securities out of
accumulated cash balances by raising taxes or other receipts, by borrowing from the public or repaying less debt, or
by curtailing other expenditures. This is the same way that the Federal Government finances all other expenditures.

The MERHCF records investment at book value, representing amortized cost, and recognizes the amortization of
discounts and premiums using the effective interest method. The MERHCF receives interest on the value of its non­
marketable market-based securities from the U.S. Treasury on a semi-annual basis for U.S. Treasury bonds and
notes.

The investments listed above are presented at amortized cost and market value as of September 30, 2008, and 2007.
The table below displays the value of the U.S. Treasury Securities held by the MERHCF.

               ($ In Thousands)
                              COST FY 2008                                     COST FY 2007
               Notes             $ 14,313,315           Notes                    $ 17,308,868
               Bonds                 3,203,750          Bonds                       3,203,750
               TIPS                115,980,754          TIPS                       85,087,256
               Overnights            1,985,531          Overnights                  4,606,470
               Total Cost        $135,483,350           Total Cost               $110,206,344

The MERHCF purchases and redeems non-marketable, market-based securities that fluctuate in tandem with the
current selling price of the equivalent marketable securities on the open market. The MERHCF purchases securities
with the intent to hold until maturity; therefore, balances are not adjusted to market value.

The DoD Investment Board approves the strategy for the type of securities purchased by MERHCF at the
semiannual meetings. These securities may include U.S. Treasury bills, notes, bonds, inflation-protected securities,
and overnight certificates. The U.S. Treasury bills are short-term securities with maturities of 1 year or less and are
purchased at a discount. The U.S. Treasury notes have maturities of at least 1 year, but not more than 10 years, and
are purchased at either a discount or premium. The U.S. Treasury bonds are long-term securities with maturities of
10 years or more and are purchased at either a discount or premium. The U.S. Treasury Inflation-Protected
Securities (TIPS) provide protection against inflation. The TIPS principal increases with inflation and decreases
with deflation, as measured by the Consumer Price Index. When a TIPS matures, the U.S. Treasury pays the
adjusted principal or original principal, whichever is greater. The TIPS amount includes inflation compensation as
well as the par value of the shares. Overnight securities are short-term securities, purchased at face value, that
mature the next business day and earn interest at the daily Federal Reserve repurchase agreement rate.




                                                          23 

                                                                  Notes to the Principal Statements

NOTE 4. ACCOUNTS RECEIVABLE

($ In Thousands)                                               FY 2008
                                                                                Allowance for
                                                                                                       Accounts
                                                              Gross              Estimated
                                                                                                      Receivable,
                                                            Amount Due          Uncollectibles
                                                                                                         Net

Intragovernmental Receivables                           $              0    $        N/A         $               0
Nonfederal Receivables from the Public                  $         12,537    $        (51)        $          12,486
Total Accounts Receivables                              $         12,537    $        (51)        $          12,486

 ($ in Thousands)                                              FY 2007
                                                                                Allowance for
                                                                                                       Accounts
                                                              Gross              Estimated
                                                                                                      Receivable,
                                                            Amount Due          Uncollectibles
                                                                                                         Net

Intra-governmental Receivables                          $              0    $        N/A         $               0
Nonfederal Receivables from the Public                  $         10,450    $        (57)        $          10,393
Total Accounts Receivables                              $         10,450    $        (57)        $          10,393

The MERHCF does not recognize an allowance for estimated uncollectible amounts from other Federal Agencies.

The Allowance for Estimated Uncollectibles (for nonfederal receivables from the public) is calculated by using the
actual percentage of write-off activity experienced for the past 11 months for two categories of debt: Debts held by
the contractor on behalf of the Government and those administered by the TRICARE Management Activity (TMA)
Office of General Counsel. Debts owed to the TMA by contractors are considered fully collectible.

NOTE 5. LIABILITIES COVERED AND NOT COVERED BY BUDGETARY RESOURCES

                                                                                   FY 2008             FY 2007
 ($ in Thousands)

 Non-Federal Liabilities:                   

 Military Retirement Benefits Liabilities (Note 7)                          $     368,254,642    $     409,025,006


 Total Non-Federal Liabilities                                              $     368,254,642    $     409,025,006

 Total Liabilities Not Covered by Budgetary Resources                       $     368,254,642    $     409,025,006

 Total Liabilities Covered by Budgetary Resources                           $     132,764,354    $     108,336,278

 Total Liabilities                                                          $     501,018,996    $     517,361,284

Liabilities not covered by budgetary resources represent the difference between the actuarial liability for future
benefit payments and the current assets of the Medicare-Eligible Retiree Health Care Fund.

The Military Retirement and Other Federal Employment Benefits not covered by budgetary resources represent
health benefit liabilities. Refer to Note 7, Military Retirement and Other Federal Employment Benefits, for
additional details and disclosures.




                                                        24 

                                                                     Notes to the Principal Statements

The Total Liabilities Not Covered by Budgetary Resources decreased $40.8 billion (10%). This variance is
comprised primarily of the increase in assets added to the decrease in the actuarial liability. The increase in assets of
$24.7 billion was largely attributable to the receipt of annual contributions from the U.S. Treasury and Uniformed
Services during the 1st Quarter, FY 2008. The decrease in the actuarial liability of $16.3 billion was caused by
changes in two key economic assumptions and the addition of a new assumption


NOTE 6. ACCOUNTS PAYABLE

 ($ in Thousands)                                                                       FY 2008          FY 2007


 Intragovernmental Payables                                                         $     61,387    $      70,276
 Nonfederal Payables (to the Public)                                                     138,429          186,361
 Total Accounts Payable                                                             $    199,816    $     256,637

The Medicare-Eligible Retiree Health Care Fund’s system does not track intra-governmental transactions by
customer at the transaction level. Therefore, internal Department of Defense buyer-side balances are adjusted to
agree with internal seller-side balances for revenue and accounts receivable. Accounts payable were adjusted by
reclassifying amounts between federal and nonfederal accounts payable.

Intra-governmental Accounts Payable decreased $8.9 million (13%) primarily due to a reduction in the number of
prescriptions processed by the contractor in September 2008 compared to September 2007. The MERHCF
intragovernmental accounts payable are directly related to the Defense Logistics Agency’s (DLA) replenishment of
the contractor’s inventory. The replenishment of the contractor’s inventory creates an accounts receivable for DLA
and an accounts payable for MERHCF. Therefore, a decrease in the replenishment requirements correlates to a
decrease in MERHCF accounts payable.

Nonfederal Payables (to the Public) decreased $47.9 million (26%) primarily due to an early cut-off of 7 days in
September 2008 for the processing of pharmacy claims. The cutoff was initiated by the pharmacy contractor,
Express Scripts, who processes claims once every 2 weeks. As a result, fewer claims were processed and the
corresponding liability to Express Scripts was reduced.

NOTE 7. MILITARY RETIREMENT BENEFIT LIABILITIES

($ In Thousands)                                                  FY 2008
                                                                   Assumed          (Less: Assets
                                                                    Interest         Available to         Unfunded
        Major Program Activities                   Liabilities     Rate (%)         Pay Benefits)         Liability

Medicare-Eligible Retiree Benefits            $   500,195,710        5.75%      $ (131,941,068)      $    368,254,642

Total                                         $   500,195,710                   $ (131,941,068)      $    368,254,642

Benefits Due and Payable                      $        623,470                  $       (623,470)    $                0

Total Military Retirement and Benefits
Due and Payable                               $   500,819,180                   $ (132,564,538)      $    368,254,642




                                                           25 

                                                                   Notes to the Principal Statements

($ in Thousands)                                              FY 2007
                                                                Assumed           (Less: Assets
                                                                 Interest          Available to         Unfunded
        Major Program Activities                  Liabilities   Rate (%)          Pay Benefits)         Liability

Medicare-Eligible Retiree Benefits           $    516,479,229      6.00%      $ (107,454,223)      $    409,025,006

Total                                        $    516,479,229                 $ (107,454,223)      $    409,025,006

Benefits Due and Payable                     $        625,418                 $       (625,418)    $                0

Total Military Retirement and Benefits
Due and Payable                              $    517,104,647                 $ (108,079,641)      $    409,025,006

The Total Military Retirement and Benefits Due and Payable decreased $16.3 billion (3%) due to the decrease in the
FY 2008 actuarial liability. This decrease is due to changes in two key assumptions and a new assumption that were
offset by the expected increase in the actuarial liability of $32.9 billion (growth due to service and interest, and
liability released through benefit payments). The two key assumption changes were a 0.25% reduction in the
discount rate (which led to a $30.6 billion increase) and revised medical trend rates (which led to a $43.9 billion
decrease). A new assumption was added to reflect mandated federal ceiling prices for retail prescription drugs
(which led to a $35.3 billion decrease).

The table for this note displays two distinct types of liabilities that are related to Military Retirement and Other
Federal Employment Benefits. This table presents the actuarial liability for health care benefits which are not yet
incurred on the line titled “Medicare-Eligible Retiree Benefits.” It also displays the incurred-but-not-reported
reserve estimate that represents an estimate of benefits already incurred but not yet reported to the DoD on the line
titled “Benefits Due and Payable.”

Projected Revenues

Projected revenues into the MERHCF, authorized by Chapter 56 of Title 10, United States Code, come from three
sources: interest earnings on MERHCF assets, annual Uniformed Services normal cost contributions, and an annual
U.S. Treasury contribution. The normal cost contributions are paid annually at the beginning of the fiscal year by
the U.S. Treasury from the amounts appropriated to the Military Services and are calculated at the approved full-
time and part-time per capita rates times the budgeted full-time and part-time force strengths. The contribution from
the U.S. Treasury is also paid into MERHCF at the beginning of each fiscal year and represents the amortization of
the unfunded liability for services performed before October 1, 2002, as well as the amortization of subsequent
actuarial gains and losses. The DoD MERHCF Board of Actuaries approves the U.S. Treasury’s contribution, and
the Secretary of Defense directs the Secretary of the Treasury to make the payment.

Computation of Liability

The Medicare-Eligible Retiree Health Care Fund (MERHCF) accumulates funds to pay for health care programs for
Medicare-eligible Military and other Uniformed Service retirees and their Medicare-eligible dependents or
survivors.

The MERHCF actuarial liability is adjusted at the end of each fiscal year. The 4th Quarter, FY 2008, balance
represents the September 30, 2008, amount.




                                                         26 

                                                                     Notes to the Principal Statements

Actuarial Cost Method

Actuarial cost method used for the MERHCF liability: Aggregate Entry-Age Normal Method. As dictated by law,
the MERHCF is funded using the aggregate entry-age normal method. This is a method whereby projected
retirement costs are spread over the projected future salaries of a cohort at the point of entry.

Assumptions

Assumptions used to calculate the actuarial liabilities, such as mortality and retirement rates, were based on actual
experience. The discount rate used was 5.75% and represents the expected long-term rate of return on U.S.
Treasuries. The discount rate was reduced 0.25% from the prior actuarial valuation. Incurred cost assumptions for
direct care were based on actual experience in FY 2007. Assumptions for purchased care were developed from
actual experience incurred during FY 2005 through FY 2007. Because of reporting deadlines, the current year
actuarial present value of projected plan benefits is rolled forward, using accepted actuarial methods, from the prior
year’s results. The FY 2008 change in the actuarial liability is displayed below. In calculating the actuarial
liabilities, the following medical trend assumptions were used:

 Medical Trend                                                   FY 2007 - FY 2008      Ultimate Rate 2032

 Medicare Inpatient (Direct Care)                                     5.65%                          6.25% 

 Medicare Inpatient (Purchased Care)                                   6.65%                         6.25% 

 Medicare Outpatient (Direct Care)                                    3.33%                          6.25% 

 Medicare Outpatient (Purchased Care)                                 4.33%                          6.25% 

 Medicare Prescriptions (Direct Care)                                 3.00%                          6.25% 

 Medicare Prescriptions (Purchased Care)                              8.55%                          6.25% 

 USFHP (Purchased Care)                                               10.00%                         6.25% 


Beginning with the actuarial liability determined for the September 30, 2008, MERHCF financial statements,
separate medical trend rates were used for direct care and purchased care costs to incorporate the assumption that
purchased care medical trends will be higher than direct care medical trends. In addition, a new set of trends was
introduced for the U.S. Family Health Plan (USFHP) costs. The USFHP costs are now valued as a separate benefit
in order to more accurately reflect that portion of the liability.

The medical cost trends assumptions have a significant effect on the amounts reported. For example, if the FY 2008
assumed rates had increased by one percentage point, the actuarial present value of projected plan benefits would
have increased by 28.6%, or approximately $143.0 billion.

 FY 2008 Change in MERHCF Actuarial Liability
 ($ in Thousands)

 A.   Actuarial Liability as of September 30, 2007 (all Uniformed Services Medicare)                $ 516,479,229
 B.   Expected Normal Cost for FY 2008                                                                  10,070,293
 C.   Expected Benefit Payments for FY 2008                                                             (8,545,983)
 D.   Interest Cost for FY 2008                                                                         31,340,326
 E.   Actuarial (Gains)/Losses Due to Other Factors                                                     (5,248,219)
 F.   Actuarial (Gains)/Losses Due to Changes in Trend Assumptions                                     (43,899,936)
 G.   Actuarial Liability as of September 30, 2008 (all Uniformed Services Medicare)                  500,195,710
 H.   Change in Actuarial Liability (Line G-Line A)                                                 $ (16,283,519)

Each year the actuarial liability is expected to increase with normal (or service) cost (Line B), decrease with benefit
payments (Line C), and increase with interest cost (interest on the liability during the period) (Line D), resulting in
an expected increase of $32.9 billion in the FY 2008 actuarial liability (Line B + Line C + Line D). The September
30, 2008, actuarial liability incorporates changes in assumptions, new assumptions, and actuarial experience. The



                                                          27 

                                                                    Notes to the Principal Statements

Actuarial Gains and Losses Due to Other Factors (Line E) decreased the liability by an additional $5.2 billion. Key
factors contributing to these “Other Factors” include a 0.25% decrease in the discount rate, adding an assumption to
reflect mandated federal ceiling prices for retail prescription drugs, other actuarial experience being different from
assumed, and actuarial assumption changes other than the change in trend assumptions and discount rate. The
actuarial gain due to changes in medical trend assumptions (and the introduction of new trend rates for USFHP)
(Line F) decreased the liability by $43.9 billion.

FY 2008 Actuarial Liability for the Uniformed Services

The MERHCF liability included Medicare liabilities for all Uniformed Services. The approximate breakout of the
September 30, 2008, Medicare liability ($ in thousands) for all Uniformed Services is as follows:

 DoD                                                            $                 489,038,340
 Coast Guard                                                                       10,015,552
 Public Health Service                                                              1,070,835
 National Oceanic and Atmospheric Administration                                       70,983
 Total                                                          $                 500,195,710

FY 2008 Military Service and Other Uniformed Service Contributions

The FY 2008 Military Service and other Uniformed Service contributions to the MERHCF ($ in thousands) were as
follows:

 DoD                                                            $                   11,185,399
 Coast Guard                                                                           272,111
 Public Health Service                                                                  36,647
 National Oceanic and Atmospheric Administration                                         1,802
 Total                                                          $                   11,495,959

Market Value of Securities for the MERHCF

The market value of the non-marketable, market based securities as of September 30, 2008, totaled $128.5 billion.

FY 2007

Actuarial Cost Method

Actuarial cost method used for MERHCF liability: Aggregate Entry-Age Normal. As dictated by law, the
MERHCF is funded using the aggregate entry-age normal method. This is a method whereby projected retirement
costs are spread over the projected future service of a cohort at the point of entry.

Assumptions

Assumptions used to calculate the actuarial liabilities, such as mortality and retirement rates, were based on actual
experience. Claims cost assumptions for direct care were based on actual experience in FY 2006. Assumptions for
purchased care were developed from actual experience incurred during FY 2004 through FY 2006. Because of
reporting deadlines, the current year actuarial present value of projected plan benefits is rolled forward, using
accepted actuarial methods, from the prior year’s results. The FY 2007 change in the actuarial liability is displayed
below. In calculating the FY 2007 roll-forward amount, the following medical trend assumptions were used:




                                                         28 

                                                                    Notes to the Principal Statements

  Medical Trend                                                 FY 2006 - FY 2007               Ultimate Rate 2031
  Medicare Inpatient                                                 6.74%                            6.25% 

  Medicare Outpatient                                                6.54%                            6.25% 

  Medicare Prescriptions (Direct Care)                               6.25%                            6.25% 

  Medicare Prescriptions (Purchased Care)                            10.95%                           6.25% 


The medical cost trend rate assumptions have a significant effect on the amounts reported. For example, if the
FY 2007 assumed rates had increased by one percentage point, the actuarial present value of projected plan benefits
would have increased by 28%, or approximately $144.1 billion.

FY 2007 Change in MERHCF Actuarial Liability

($ in Thousands)
   A. Actuarial Liability as of September 30, 2006 (all Uniformed Services Medicare)       $    538,032,547
   B. Expected Normal Cost for FY 2007                                                            10,801,492
   C. Expected Benefit Payments for FY 2007                                                       (8,494,519)
   D. Interest Cost for FY 2007                                                                   34,040,697
   E. Actuarial (Gains)/Losses Due to Other Factors                                                (4,783,551)
   F. Actuarial (Gains)/Losses Due to Changes in Trend Assumptions                               (53,117,437)
   G. Actuarial Liability as of September 30, 2007 (all Uniformed Services Medicare)       $    516,479,229
   H. Change in Actuarial Liability (Line G-Line A)                                        $    (21,553,318)

Each year the actuarial liability is expected to increase with normal (or service) cost, decrease with benefit
payments, and increase with interest cost (interest on the liability during the period), resulting in an expected
increase of $36.3 billion in the FY 2007 actuarial liability (Line B plus Line C plus Line D). The
September 30, 2007, actuarial liability included changes due to new assumptions and actuarial experience. The
actuarial gain due to new medical trend assumptions decreased the liability by $53.1 billion (Line F). The Actuarial
Gains and Losses Due to Other Factors (Line E) decreased the liability by an additional $4.8 billion. These other
factors (Line E) also included a 0.25% decrease in the discount rate ($31.8 billion loss), claim-related changes
($31.0 billion gain), changes in assumed plan participation rates ($14.2 billion gain) and other actuarial assumption
and experience changes ($8.6 billion loss).

FY 2007 Actuarial Liability for the Uniformed Services

The MERHCF liability included Medicare liabilities for all Uniformed Services. The approximate breakout of the
September 30, 2007, Medicare liability ($ in thousands) for all Uniformed Services is as follows:

 DoD                                                                          $         505,103,001

 Coast Guard                                                                             10,216,768

 Public Health Service                                                                    1,086,666 

 National Oceanic and Atmospheric Administration                                             72,794

 Total                                                                        $         516,479,229


FY 2007 Military Service and Other Uniformed Service Contributions

The FY 2007 Military Service and other Uniformed Service contributions to MERHCF ($ in thousands) were as
follows:

 DoD                                                                          $           11,230,630

 Coast Guard                                                                                 278,704 

 Public Health Service                                                                        36,288

 National Oceanic and Atmospheric Administration                                               1,820 

 Total                                                                        $           11,547,442




                                                         29 

                                                                    Notes to the Principal Statements


Market Value of Securities for the MERHCF

The market value of the non-marketable, market based securities as of September 30, 2007, totaled $107.8 billion.

NOTE 8. GENERAL DISCLOSURES RELATED TO THE STATEMENTS OF NET COST

($ In Thousands)
                                                          FY 2008                       FY 2007

Intragovernmental Costs                        $               2,365,012     $              2,398,537
Public Costs                                                 (10,794,800)                 (16,344,340)
Total Costs                                    $              (8,429,788)     $           (13,945,803)

Intragovernmental Earned Revenue               $             (32,657,192)     $           (31,539,307)
Public Earned Revenue                                                  0                            0
Total Earned Revenue                           $             (32,657,192)     $           (31,539,307)

Net Cost of Operations                         $             (41,086,980)     $           (45,485,110)

The Net Cost of Operations decreased $4.4 billion (10%). This variance is primarily due to a decrease of
$16.3 billion in the actuarial liability affecting current year costs. The major component of the MERHCF total cost
is the change in the actuarial liability. The September 30, 2008, decrease is $16.3 billion; the September 30, 2007,
decrease in liability was $21.5 billion. Factors impacting the change are discussed in Note 7, Military Retirement
Benefits Liabilities.

The FY 2008 abnormal balance on the Statement of Net Cost (SNC), a negative $8.4 billion, is due to a $16.3 billion
decrease in the MERHCF actuarial liability which was updated September 30, 2008. This decrease was caused by
changes in the actuarial assumptions, new assumptions, experience, and assumed discount rate and was offset by
$7.9 billion in normal benefit expenses.

The FY 2007 abnormal balance on the SNC, a negative $13.9 billion, was due to a significant decrease in the
actuarial liability of the MERHCF. This liability is updated annually each September. The $21.6 billion decrease in
the actuarial liability was caused by changes in the actuarial assumptions related to participation trend rates, medical
trend rates, and the assumed discount rate and was offset by $5.2 billion in normal benefit expenses. The decrease
in the actuarial liability was also the primary reason for the $21.7 billion decrease in Public Costs.

The SNC represents the net cost of programs and organizations of the Federal Government supported by
appropriations or other means. The intent of the SNC is to provide gross and net cost information related to the
amount of output or outcome for a given program organization administered by a responsible reporting entity. The
Department’s current processes and systems do not capture and report accumulated costs for major programs based
upon the performance measures as required by the Government Performance and Results Act. The Department is in
the process of reviewing available data and developing a cost reporting methodology as required by the Statement of
Federal Financial Accounting Standards No. 4, Managerial Cost Accounting Concepts and Standards for the
Federal Government.

Intragovernmental costs and revenue are related transactions made between two reporting entities with the Federal
Government. Public costs and revenues are exchange transactions made between the reporting entity and a
nonfederal entity.




                                                          30 

                                                                    Notes to the Principal Statements

Intragovernmental Earned Revenue is comprised of the following amounts:

                            Intragovernmental Earned Revenues for Program Costs

($ in Thousands)                                                                    FY 2008                FY 2007

1. Uniformed Service Contributions                                            $      11,495,959     $       11,547,442
2. Annual Treasury Unfunded Liability Payment                                        12,930,000             15,608,000
3. Interest on Investments                                                            8,231,233              4,383,865
4. Total Intragovernmental Revenue                                            $     $32,657,192    $       $31,539,307

Line 1. Uniformed Services Contributions represent the amount contributed by Treasury on behalf of the Uniformed
Services (Military Services, U.S. Public Health Service, U.S. Coast Guard, and the National Oceanic and
Atmospheric Administration) at the beginning of each fiscal year. The contribution rates, which are determined by
the DoD Retirement Board of Actuaries, are based on Board-approved per capita normal cost rates and expected
average strengths for the Uniformed Services.

Line 2. Annual Treasury Unfunded Liability Payment. This payment represents the amortization of the unfunded
liability for service performed before October 1, 2002, as well as the amortization of subsequent actuarial gains and
losses.

Line 3. Interest on Investments represents the interest income received by the MERHCF for FYs 2008 and 2007.

NOTE 9, DISCLOSURES RELATED TO THE STATEMENT OF CHANGES IN NET POSITION.

There was a difference of $32.3 billion between Appropriations Received on the Statement of Changes in Net
Position (SCNP) and Appropriations Received on the Statement of Budgetary Resources (SBR). This difference
represents current receipts reported as exchange revenue on the Statement of Net Cost, as appropriations on the
SBR, and as a part of the Net Cost of Operations on the SCNP. As of September 30, 2007, the difference between
the MERHCF’s two statements was $31.2 billion.

NOTE 10. DISCLOSURES RELATED TO THE STATEMENTS OF BUDGETARY RESOURCES

  ($ in Thousands)                                                                              2008            2007

 Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of
 the Period                                                                                 $     40,286    $   112,136

The Net Amount of Budgetary Resources Obligated for Undelivered Orders decreased $71.8 million. This variance
was primarily due to deobligations of outstanding projected annual enrollment fees for the U.S. Family Health Plan
(USFHP). Throughout FY 2008, a reconciliation performed on the obligations for the USFHP resulted in the
closure of obligation lines for completed contracts. The USFHP is an alternative health care delivery plan offered in
limited locations by private health care companies (similar to health maintenance organizations) which provide full
health care services to enrolled beneficiaries. The MERHCF pays the annual enrollment fees for the Medicare-
eligible beneficiaries. This enrollment requires the beneficiaries to obtain all health care from the USFHP facility.

Apportionment Categories. The OMB Circular No. A-136 specifically requires disclosure of the amount of direct
and reimbursable obligations incurred against certain apportionment categories. As of September 30, 2008, the
MERHCF reported $7.8 billion in direct, Category B obligations which are apportioned funds that relate to a
specific project or program. As of September 30, 2007, the MERHCF reported $7.6 billion in direct, Category B
obligations.

Permanent Indefinite Appropriation. Title 10, U.S. Code 1111 provides the MERHCF a permanent indefinite
appropriation with which to finance, on an actuarially sound basis, the liabilities of DoD’s uniformed services retiree
health care programs for Medicare-eligible beneficiaries. These funds are only available to pay for the costs of the



                                                          31 

                                                                   Notes to the Principal Statements

retiree health care program for all eligible beneficiaries of the MERHCF. Amounts that are not needed to pay the
current costs of the Fund may be invested in non-marketable market-based securities purchased through the
Department of the Treasury. A permanent indefinite appropriation provides budget authority of an unspecified
amount of money that is available as a result of previously enacted legislation and which does not require new
legislation for the current year.

Use of Unobligated Balances of Budget Authority. The MERHCF’s unobligated balances of budget authority
represent the portion of trust fund receipts collected in the current fiscal year that (1) exceed the amount needed to
pay benefits or other valid obligations and (2) exceed receipts temporarily precluded from obligation by law due to a
benefit formula or other limitation. The receipts, however, are assets of the MRF and are available for obligation as
needed in the future.

Intraentity Transactions. Intraentity transactions have not been eliminated because the statements are presented as
combined and combining

The U.S. Treasury issues annual warrants that pay amortized payments for the unfunded actuarial liabilities of the
Fund. The Fund’s annual warrant for FY 2008 totaled $12.9 billion. The Other Defense Organizations General
Fund credits, and subsequently expends, this amount to the MERHCF in accordance with OMB guidance. The
OMB is aware, and approves, of this duplicate reporting. As a result, $12.9 billion is duplicated on the DoD
Agency-wide SBR. As of September 30, 2007, the Fund’s annual warrant was $15.6 billion, which was duplicated
on the DoD Agency-wide SBR for FY 2007.

In addition, the Fund reports Appropriations Received for contributions that the Army, Navy, and Air Force pay.
The Military Departments also include these amounts in their respective Appropriations Received. For FY 2008, the
Fund reported a total of $11.2 billion for the Military Departments, which is duplicated on the DoD Agencywide
SBR. As of September 30, 2007, the Fund also reported $11.2 billion in contributions from the Military
Departments, which was duplicated on the DoD Agency-wide SBR for FY 2007.




                                                         32 

                                                                   Notes to the Principal Statements

NOTE 11. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

 ($ In Thousands)
 RESOURCES USED TO FINANCE ACTIVITIES
                                                                                     FY 2008             FY 2007
       Budgetary Resources Obligated
        Obligations incurred                                                    $   7,785,922      $     7,575,689
        Less: Offsetting receipts (-)                                             (20,774,860)       (19,653,179)
        Net obligations                                                         $ (12,988,938)     $ (12,077,490)
    Total resources used to finance activities                                  $ (12,988,938)     $ (12,077,490)
 RESOURCES USED TO FINANCE ITEMS NOT PART OF THE
     NET COST OF OPERATIONS:
 Change in budgetary resources obligated for goods, services and benefits
     ordered but not yet provided:
       Undelivered Orders (-)                                                   $      71,850      $      12,662
 Resources that fund expenses recognized in prior periods                       $ (16,285,468)     $ (21,532,564)
 Total resources used to finance items not part of the Net Cost of
 Operations                                                                     $ (16,213,618)     $ (21,519,902)
 Total resources used to finance the Net Cost of Operations                     $ (29,202,556)     $ (33,597,392)
 COMPONENTS OF THE NET COST OF OPERATIONS THAT
     WILL NOT REQUIRE OR GENERATE RESOURCES IN THE
     CURRENT PERIOD:
 Components not Requiring or Generating Resources
          Trust Fund Exchange Revenue                                           $ (11,882,332)     $ (11,886,128)
          Other                                                                        (2,092)            (1,590)

 Total components of Net Cost of Operations that will not require or
 generate resources in the current period                                       $ (11,884,424)     $ (11,887,718)

 Net Cost of Operations                                                         $ (41,086,980)     $ (45,485,110)

The previous note schedule lines are presented as combined instead of consolidated due to intraagency budgetary
transactions not being eliminated: Obligations Incurred; Obligations Net of Offsetting Collections and Recoveries;
Less: Offsetting Receipts; Net Obligations; and Undelivered Orders.

Components not Requiring or Generating Resources – Other displays the changes in accounts receivables for both
FY 2007 and FY 2008. These amounts represent refunds receivable for duplicate or other erroneous MERHCF
payments made to contractors for care of the beneficiaries and for copayments from MERHCF beneficiaries for
prescriptions. These refunds receivable are recorded as an offset to expenses. This line also displays the changes in
bad debts for both FY 2007 and FY 2008. These bad debts occurred because erroneous payments made to
MERHCF beneficiaries or to nonfederal providers of medical services were not repaid.




                                                         33 

                                                                    Notes to the Principal Statements

NOTE 12. BENEFIT PROGRAM EXPENSE

FY 2008 Change in MERHCF Actuarial Liability

The benefit program expenses (BPE) for FY 2008 and FY 2007 are displayed in the Table 1. Details about these
expenses are provided below:

Table 1. Benefit Program Expenses

($ In Thousands)
                                                                                       FY 2008            FY 2007

A. Service Cost                                                                    $ 10,070,293        $ 10,801,492
B. Period Interest on the Benefit Liability                                          31,340,326          34,040,697
C. Prior (or Past) Service Cost                                                                0                   0
D. Period Actuarial (Gains) or Losses                                                 (5,248,219)         (4,783,551)
E. Actuarial (Gains)/Losses Due to Changes in Medical Trend Assumptions             (43,899,936)        (53,117,437)
F. Total                                                                           $ (7,737,536)       $(13,058,799)

The BPE provide components of the change in the actuarial liability from September 30, 2007, to September 30,
2008. The September 30, 2008, actuarial liability is calculated using the components of BPE as well as the expected
benefit payments during the fiscal year. See Note 7, Military Retirement Benefit Liabilities, for further details about
the change in the actuarial liability. The September 30, 2008, actuarial liability is equal to the September 30, 2007,
liability plus the total BPE minus the expected benefit payments. The BPE includes normal (or service) cost,
interest cost, and gains and losses. It measures the change in the actuarial liability from one year to the next
(excluding the impact of benefit payments).

In FY 2008, the Period Actuarial (Gains) or Losses component of BPE (Line D) contributed a net gain (liability
decrease) reflecting the net of various gains and losse4s resulting from experi4ernce and changes in assumptions.
The (Gains)/Losses Due to Changes in Medical Trend Assumption component of BPE (Line E) also produced a gain
in FY 2008; however, the new medical trend rate assumptions used in FY 2007 produced a larger gain. Each year,
the MERHCF Board of Actuaries approves the assumption changes.

The Service Cost (Line A) and Interest Cost components of the BPE (Line B) are generally expected to increase
each year. However, actuarial gains and losses always occur as a result of changes in assumptions, new
assumptions, actuarial experience, and/or benefit changes.




                                                          34 

                                                                     Notes to the Principal Statements

NOTE 13 EARMARKED FUNDS

BALANCE SHEET                                                          2008                 2007
Assets
Fund balance with Treasury                                       $           5,000 $       5,000
Investments                                                           134,291,659    109,549,060
Accounts and Interest Receivable                                           12,486         10,393
Total Assets                                                     $     134,309,145 $ 109,564,453

Liabilities And Net Position
Military Retirement Benefits and Other Federal Employment        $    500,819,180 $      517,104,647
Benefits
Other Liabilities                                                         199,816            256,637
Total Liabilities                                                $    501,018,996        517,361,284
Cumulative Results of Operations                                     (366,709,851)       (407,796,831)
Total Liabilities And Net Position                               $    134,309,145 $       109,564,453

STATEMENT OF NET COST
Program Costs                                                    $     (8,429,788) $      (13,945,803)
Less Earned Revenue                                                   (32,657,192)        (31,539,307)
Net Program Costs                                                $    (41,086,980) $      (45,485,110)
Net Cost of Operations                                           $    (41,086,980) $      (45,485,110)

STATEMENT OF CHANGES IN NET POSITION
Net Position Beginning of the Period                             $ (407,796,831) $       (453,467,941)
Net Cost of Operations                                              (41,086,980)          (45,485,110)
Budgetary Financing Sources                                             0                     186,000
Change in Net Position                                           $   41,086,980 $          45,671,110

Net Position End of Period                                       $ (366,709,851) $       (407,796,831)

Public Law 106-398, The Floyd D. Spence National Defense Authorization Act for Fiscal Year 2001, authorized the
establishment of the Medicare-Eligible Retiree Health Care Fund (MERHCF). The MERHCF accumulates funds to
finance, on an actuarially sound basis, liabilities of the DoD and the Uniformed Services health care programs for
specific Medicare-eligible beneficiaries. The MERHCF receives its appropriations and funds as special and
earmarked funds and uses these appropriations and funds to execute its mission and report on resource usage.

The primary financing sources for MERHCF are (1) an annual unfunded actuarial liability payment from the
U.S. Treasury; (2) annual contributions from the Military Services and other Uniformed Services (U.S. Coast Guard,
the National Oceanic and Atmospheric Administration, and U.S. Public Health Service); and (3) interest earned on
investments. These financing sources are the result of intra-governmental flows. Contributions in excess of the
projected current year health care benefits are invested. These investments and associated revenue are used to cover
future liabilities of MERHCF.

NOTE 14. OTHER DISCLOSURES. The actuarial liability for Medicare-eligible retiree benefits as of
September 30, 2008, and 2007 includes approximately $71.0 billion (14% of total) and $75.0 billion (14% of total),
respectively, of amounts reflecting the actuarial present value of the projected direct-care costs of benefits to be
provided by the military treatment facilities (MTFs) to eligible participants in the Fund. Additionally, the reported
amounts of program revenues and cost for the year ended September 30, 2008, include approximately $3.3 billion
and $1.7 billion, respectively, and for the year ended September 30, 2007, include approximately $3.7 billion and
$1.8 billion, respectively, of amounts related to the direct-care costs. Such MTF-related amounts of direct-care costs
are estimated by the Fund’s actuaries using data extracted from various Military Service-specific financial,
personnel and workload systems within DoD. With respect to extracted data, the MTFs do not have compliant,
transaction-based accounting systems and, therefore, cannot report the costs of an individual patient’s care.




                                                         35 

          DoD 

MEDICARE-ELIGIBLE RETIREE 

   HEALTH CARE FUND 



  OTHER ACCOMPANYING

     INFORMATION





            36 

                                                                 Other Accompanying Information


                                                   EXHIBIT 1

                           MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND 

                                 ACTUARIAL STATUS INFORMATION 

                                   SEPTEMBER 30, 2008, AND 2007


                                                 ($ in Thousands) 




                                                                             September 30, 2008       September 30, 2007
1   Present value of future benefits


    a. Current inactives                                                          $307,149,821            $316,898,580
    b. Active duty personnel ¹                                                    $156,814,830            $156,849,172
    c. Nonretired reservists                                                      $116,763,813            $121,155,895
    d. Total                                                                      $580,728,464            $594,903,647


2   Present value of future normal
    cost contributions                                                           $ (80,532,754)           $ (78,424,418)


3   Actuarial accrued liability                                                   $500,195,710            $516,479,229


4   Assets 2 (funded accrued liability)                                           $131,941,068            $107,454,223


5   Unfunded accrued liability ³                                                  $368,254,642            $409,025,006



________________________________

1
        The future benefits of active duty personnel who are projected to retire as reservists are counted on line 1c.

2
       The assets available to pay benefits are determined using the amortized cost method (book value) of valuation.

3
       The unfunded accrued liability does not include $623.5.million and $625.4 million for the estimated incurred­
        but-not-reported liabilities as of September 30, 2008, and 2007, respectively, as presented in the Balance Sheet
        as “Benefits Due and Payable” and as discussed in Note 7, “Military Retirement Benefit Liabilities.”




                                                        37 

                                                                   Other Accompanying Information

                                                     EXHIBIT 2

                     MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND 

          SUMMARY OF FINANCIAL STATEMENT AUDIT AND MANAGEMENT ASSURANCES 

                                  SEPTEMBER 30, 2008


Agencies are required to provide certain assurances as to the status and effectiveness of the internal controls and
financial management systems that support the preparation of the financial statements. In the context of the
MERHCF Management Discussion and Analysis, DoD, and not MERHCF, represents the legislative definition of an
Agency. Beginning with FY 2006, as directed in OMB Circular A-123, Management’s Responsibility for Internal
Control, Appendix A, Internal Control Over Financial Reporting, the 24 CFO Act agencies (includes DoD), are
required to provide a separate assessment of the effectiveness of the internal controls over financial reporting as a
subset of the overall Federal Managers Financial Integrity Act (FMFIA) assurance statement. The Office of the
Under Secretary of Defense (Comptroller) (OUSD(C)) issued guidelines to the leadership of the DoD Components,
including MERHCF, as to how to support this DoD reporting requirement. TMA management complied with the
required guidelines for MERHCF.

In its FY 2008 assessments, TMA management assessed that, except for direct care related material weaknesses
addressed below, the MERCHF (as an OMB-designated Financial Statement Reporting Entity (FSRE)) has effective
internal controls to support effective and efficient programmatic operations, reliable financial reporting, and is in
process of implementing corrective actions to become fully compliant with applicable laws and regulations
(FMFIA § 2); while the current financial management systems do not currently conform to financial systems
requirements (FMFIA § 4) TMA management is working with DFAS to implement corrective actions for purchased
care operations to comply with (FMFIA § 4). The MERHCF FSRE cannot achieve compliance with (FMFIA § 4)
for direct care until the Military Services have implemented financial systems that comply with (FMFIA § 4). The
OUSD (C)-published Financial Improvement and Audit Readiness Report as of March 2008, indicates a FY 2017
timeline for the Military Services to achieve (FMFIA § 4) compliance.

TMA management previously reported that, except for the direct care-related material weakness discussed below,
and documented in its Annual Statement Required Under the FMFIA, dated July 3, 2007, and its non-compliance
with OMB Circular A-127, the MERHCF had effective internal controls over financial reporting. However,
subsequent to the assessment process, an additional material weakness was identified during FY 2007. During the
preparation of the Fund’s year-end financial statements, the initial presentation of certain offsetting receipts accounts
of the MERHCF for FY 2006 and FY 2007 was determined to be noncompliant with U.S. Treasury guidance,
affecting the Statement of Budgetary Resources and the disclosure of financial activities. The change in U.S.
Treasury guidance for offsetting receipts, which was effective for FY 2006, was not previously identified for the
MERHCF’s financial statement preparation process. In its FY 2006 Report of Treasury Receipts by Source,
Treasury identified certain receipt accounts that should be identified as distributed offsetting receipts by the
MERHCF and the DoD.

The correct classification of offsetting receipts is significant to the accurate reporting of intragovernmental activity
for the DoD and U.S. Government financial statements.

Therefore, the MERHCF corrected the presentation of the FY 2007 financial statements and restated the FY 2006
financial statements and related disclosures.

The Status of FY 2008 Audit Findings and Actions Taken tables include a summary of material weakness
(FMFIA§ 2) and non-conformances (FMFIA § 4) and summary of corrective actions to resolve the material
weaknesses and non-conformances.




                                                           38 

                                                                        Other Accompanying Information


Table 1. Summary of Financial Statement Audit

Audit Opinion                                                                         Qualified
Restatement                                                                             No

Material Weaknesses                                       Beginning        New     Resolved   Consolidated     Ending
                                                          Balance                                              Balance
Lack of U.S. Standard General Ledger Compliant,               3                                                   3
Transaction-based Accounting Systems for Direct-care
Costs (Carried Forward and Updated Finding from
Fiscal Year (“FY”) 2005)
Direct Care Cost Data Accumulation (Carried Forward                 3                                             3
and Updated Finding from Fiscal Year FY2005)
Presentation of Distributed Offsetting Receipts                     3                 3
Total Material Weaknesses                                           3          0      1            0              2



Table 2. Summary of Management Assurances

                  Effectiveness of Internal Controls over Financial Reporting (FMFIA § 2)
Statement of Assurance                                                 Qualified

Material Weaknesses                          Beginning     New          Resolved   Consolidated   Reassessed    Ending
                                             Balance                                                            Balance
Lack of U.S. Standard General Ledger             3                                                                3
Compliant, Transaction-based Accounting
Systems for Direct-care Costs (Carried
Forward and Updated Finding from Fiscal
Year (“FY”) 2005)
Direct Care Cost Data Accumulation              3                                                                  3
(Carried Forward and Updated Finding
from Fiscal Year FY2005)
Presentation of Distributed Offsetting          3                          3
Receipts
Total Material Weaknesses                        3              0          1              0            0           2

                         Effectiveness of Internal Controls over Operations (FMFIA § 2)
Statement of Assurance                                                    Qualified

Material Weaknesses                          Beginning     New          Resolved   Consolidated   Reassessed    Ending
                                             Balance                                                            Balance
Lack of U.S. Standard General Ledger             3                                                                3
Compliant, Transaction-based Accounting
Systems for Direct-care Costs (Carried
Forward and Updated Finding from Fiscal
Year (“FY”) 2005)
Direct Care Cost Data Accumulation              3                                                                  3
(Carried Forward and Updated Finding
from Fiscal Year FY2005)
Total Material Weaknesses                        2              0          0              0            0           2




                                                         39 

                                                               Other Accompanying Information


                 Conformance with financial management system requirements (FMFIA § 4)
Statement of Assurance     Except for the Trust Fund Accounting System (TFAS) used by DFAS-IN, Purchased
                           Care systems conform to financial management systems requirements; Direct Care
                           Cost systems do not comply with financial management systems requirements

Non-Conformances             Beginning     New      Resolved     Consolidated      Reassessed   Ending
                             Balance                                                            Balance
Lack of U.S. Standard             3                                                                 3
General Ledger Compliant,
Transaction-based
Accounting Systems for
Direct-care Costs (Carried
Forward and Updated
Finding from Fiscal Year
(“FY”) 2005)
Direct Care Cost Data             3                                                                3
Accumulation (Carried
Forward and Updated
Finding from Fiscal Year
FY2005)
Total non-conformances            2           0            0            0                0          2



        Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                     Agency                  Auditor
Overall Substantial Compliance                          No                     No
1. Systems Requirements                        Yes for Purchased Care; - No for Direct Care
2. Accounting Standards                        Yes for Purchased Care; - No for Direct Care
3. USSGL at Transaction Level                  Yes for Purchased Care; - No for Direct Care




                                                    40 

                                                                  Other Accompanying Information

                                                     EXHIBIT 3

                            MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND 

                                      IPIA REPORTING DETAILS 

                                         SEPTEMBER 30, 2008


IMPROPER PAYMENTS INFORMATION ACT REPORTING

The Improper Payments Information Act (IPIA) of 2002, as implemented by the OMB Circular A-123, Appendix C,
“Requirements for Effective Measurement and Remediation of Improper Payments,” requires Federal agencies to
review all programs and activities annually, and identify those that may be susceptible to significant erroneous
payments. The Department’s FY 2008 review did not identify any programs at risk of significant erroneous
payments in accordance with OMB criteria (programs with erroneous payments exceeding both $10.0 million and
2.5 percent of program payments).

RISK ASSESSMENT

The Department’s risk assessment for Military Health Benefits addressed the effectiveness of internal controls for
preventing improper payments (such as prepayment reviews), as well as system weaknesses identified internally or
by outside audit activities. While the Department’s improper payment percentages are low, numerous pre- and post-
payment controls further minimize and eliminate improper payments.

On a quarterly basis, the Department audits statistically valid samples of health care claims. Over the years, these
audits consistently have produced an error rate of less than the 2% performance standard contained in TRICARE
contracts. Errors in health care claims processing potentially can be related to improperly submitted claims by
providers, as well as a minimal degree of human error expected with handling a large volume of claims under the
tight time parameters established by the Prompt Payment Act regulations and the claims processing timeliness
performance standard. The FY 2007 improper payment rate for military health benefits was estimated to be
$156.0 million or 2%. The actual performance was significantly less: 0.93% or $88.6 million.

Numerous prepayment and post-payment controls are built into the military health benefits’ claims processing
system to minimize improper payments. Every claim is adjudicated against this system of checks and balances.
One control is the prepayment review required under the contract. The contractor uses this strategy to prevent
payment for questionable billing practices. Prepayment review allows for a closer examination of the services
rendered and may require the provider to submit medical documentation to support the services billed. In addition,
the Department of Defense requires the contractor to have an anti-fraud unit to identify and investigate any pattern
of suspicious or potential fraudulent billings. Recoupment from cases identified, combined with proactive case
work are additional benefit dollars returned to the Fund.

STATISTICAL SAMPLING PROCESS

To determine an estimate of the annual amount of improper payments, the Department of Defense uses a statistically
valid method of sampling for the managed care support services contracts and the Medicare dual eligibility
contractor.

The Department samples data records for review for claims processed by the Medicare dual eligible contractor
quarterly. There are two kinds of payment samples, one for non-denied claims and one for denied claims. For the
Medicare dual eligible contract, the non-denied payment sample will be drawn from all records with government
payments of $1 to $25,000. All records with a government payment of $25,000 and over will be audited. The
denied payment sample will be drawn from all records with a billed amount of $1 to $500,000. All records with
billed amounts of $500,000 and over will be audited. The non-denied sample will be stratified at multiple levels
within the $1 to $25,000 range, and the denied payment sample will be stratified at multiple levels within the $1 to
$500,000 range.




                                                          41 

                                                                         Other Accompanying Information

        CORRECTIVE ACTION PLAN

        The Department’s contracts have had payment performance standards for military health benefit claims processing
        in place for many years. The estimate of 2 percent is based on the contract performance standard. However, actual
        results have been consistently less than 2 percent. FY 2007 results reflect an improper payment rate of 0.93 percent.
        Contractors exceeding the 2% performance standard are subjected to a financial disincentive for erroneous claims
        payments. In addition, the contractors are financially liable for payment of non-allowable claims. This contractual
        design, combined with numerous prepayment and post-payment controls, effectively minimizes improper payments
        and ensures the Government’s risk for improper payments in military health benefits is minimized.

                   MILITARY HEALTH BENEFITS PROGRAM IMPROPER PAYMENT REPORTING


       FY 2007                  FY 2008                FY 2009 Estimated           FY 2010 Estimated          FY 2011 Estimated
Outlays   IP   IP        Outlays   IP    IP          Outlays   IP      IP        Outlay    IP     IP        Outlays   IP      IP
 ($B)    (%) ($M)         ($B)    (%) ($M)            ($B)    (%) ($M)           s ($B)   (%) ($M)           ($B)    (%) ($M)
 $9.5    0.93 $88.6       $8.9      2   $178          $10.8     2    $216        $10.5      2    $211        $10.8     2    $216


        1. The final payment error rate for FY 2007 is 0.93%, which is less than the contract performance standard of 2%
        used in the FY 2007 AFR calculation. The error rate in FY 2008 and beyond is a conservative estimate based on the
        2% contract performance standard.

        2. The FY 2007 outlays include all benefit dollars subject to the audit process. Fee-for-service claims are
        considered susceptible to improper payments as payment is made based upon an individual claim submitted by a
        provider or beneficiary certifying services were provided as billed. Administrative or change order costs are not
        included, as those costs do not fall into the definition of areas susceptible to improper payments.

        3. The FY 2007 outlays do not include:

                  a. The Designated Providers (U.S. Family Health Plan) contracts, through which a set amount is paid for
        each patient’s care on a per member per month basis. The contractor is 100% responsible for improper payments;
        there is no shared risk with the Government. The Defense Contract Audit Agency conducts reconciliations to
        validate correct capitated payments for the enrolled population. Government liability is limited to the amount paid
        to the contractor regardless of the cost of health care services.

                 b. Pharmacy claims. The Department is developing an audit process.

                 c. Foreign claims. The Department is developing an audit process.




                                                                 42 

          DoD 

MEDICARE-ELIGIBLE RETIREE 

   HEALTH CARE FUND 



 INDEPENDENT AUDITORS’ 

        REPORTS 





           43 

________________________________Independent Auditors’ Reports





                               44 

________________________________Independent Auditors’ Reports





                               45 

________________________________Independent Auditors’ Reports





                               46 

                                                                 4501 Ford Avenue, Suite 1400, Alexandria, VA 22302
                                                                 PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com

                                     INDEPENDENT AUDITOR’S REPORT


To:

The Inspector General of the Department of Defense,
The Deputy Under Secretary of Defense for Program Integration,
The Acting Deputy Assistant Secretary of Defense, Health Budgets and Financial Policy, and
The Audit Committee of the Department of Defense
Medicare-Eligible Retiree Health Care Fund


We have audited the accompanying Balance Sheets of the Department of Defense (DoD) Medicare-Eligible Retiree
Health Care Fund (the Fund) as of September 30, 2008 and 2007, and the related Statement of Net Cost, Statement
of Changes in Net Position, and Statement of Budgetary Resources for the years then ended. These financial
statements are the responsibility of the Fund’s management. Our responsibility is to express an opinion on these
financial statements based on our audits.

Except as discussed in the following paragraphs, we conducted our audits in accordance with auditing standards
generally accepted in the United States of America, standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States, and requirements of Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. Those
standards and the OMB Bulletin require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of internal
control over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of the Fund’s internal control over financial
reporting. Accordingly, we express no such opinion. An audit also includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

We were unable to obtain sufficient, appropriate audit evidence from compliant, transaction-based accounting
systems to support the costs of direct care provided by the DoD-managed Military Treatment Facilities (MTF). As
discussed in Note 14 to the financial statements, the actuarial liability for Medicare-eligible retiree benefits, as of
September 30, 2008 and 2007, includes approximately $71 billion (14% of total) and $75 billion (14% of total),
respectively, of amounts reflecting the actuarial present value of the projected direct-care costs of benefits to be
provided by the MTFs to eligible participants in the Fund. Additionally, the reported amounts of program revenues
and cost for the year ended September 30, 2008, include approximately $3.3 billion and $1.7 billion, respectively,
and for the year ended September 30, 2007, include approximately $3.7 billion and $1.8 billion, respectively, of
amounts related to the direct-care costs.

Such MTF-related amounts of direct-care costs are estimated by the Fund’s actuaries using data extracted from
various service-specific financial, personnel, and workload systems within DoD. With respect to extracted data, the
MTFs do not currently have compliant, transaction-based accounting systems. While activity-based costing
techniques are used to estimate the program costs related to the MTFs, the costs being allocated cannot be related to
specific appropriations, and there is insufficient evidence that adequate controls exist and have been implemented to
ensure the completeness, validity, recording, and cut-off of the costs reported.

Additionally, there is insufficient evidence that adequate controls exist and have been implemented to ensure the
timeliness and accuracy of the medical record coding processes at the MTFs, which is a significant factor in the
allocation processes. We were unable to obtain sufficient evidence as to the direct-care component of the reported
amount of the actuarial liability for Medicare-eligible retiree benefits by other auditing procedures.



                                                          47 

In our opinion, except for the effects on the financial statements of the amounts related to the Fund’s direct-care
costs, if any, as might have been determined to be necessary had we been able to obtain sufficient evidence regarding
the direct-care component of the actuarial liability for Medicare-eligible retiree benefits; such financial statements
present fairly, in all material respects, the financial position of the Fund, as of September 30, 2008 and 2007, and its
net cost of operations, changes in net position, and budgetary resources for the years then ended in conformity with
accounting principles generally accepted in the United States of America.

Our audits were conducted for the purpose of forming an opinion on the basic financial statements taken as a whole.
The accompanying “Management’s Discussion & Analysis” and “Other Accompanying Information” are not
required parts of the basic financial statements. Rather, these are considered supplementary information required by
accounting principles generally accepted in the United States of America, OMB Circular A-136, Financial
Reporting Requirements, and the Federal Accounting Standards Advisory Board. This supplementary information is
the responsibility of the Fund’s management. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation of the
supplementary information; however, such information has not been subjected to the procedures applied in our
audits of the basic financial statements. Accordingly, we do not express an opinion on it.

In accordance with Government Auditing Standards, we have also issued our report dated October 31, 2008 on our
consideration of the Fund’s internal control over financial reporting and our tests of its compliance with certain
provisions of laws, regulations, contracts, and agreements and other matters. The purpose of that report is to
describe the scope of our testing of internal control over financial reporting and compliance, and the results of that
testing, and not to provide an opinion on the internal control over financial reporting or on compliance. That report
is an integral part of an audit performed in accordance with Government Auditing Standards, and should be
considered in assessing the results of our audits.




October 31, 2008
Alexandria, Virginia




                                                          48 

                                                                  4501 Ford Avenue, Suite 1400, Alexandria, VA 22302
                                                                  PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com



 INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING

   AND ON COMPLIANCE AND OTHER MATTERS BASED UPON THE AUDIT PERFORMED IN 

              ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS


To:

The Inspector General of the Department of Defense,
The Deputy Under Secretary of Defense for Program Integration,
The Acting Deputy Assistant Secretary of Defense, Health Budgets and Financial Policy, and
The Audit Committee of the Department of Defense
Medicare-Eligible Retiree Health Care Fund


We have audited the financial statements of the Department of Defense (DoD) Medicare- Eligible Retiree Health
Care Fund (the Fund) as of and for the year ended September 30, 2008, and have issued our report thereon dated
October 31, 2008. We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States, and requirements of Office of Management and Budget (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

                           INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit, we considered the Fund’s internal control over financial reporting as a basis for
designing auditing procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of the Fund’s internal control over financial reporting. Accordingly, we do not express
an opinion on the Fund’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the preceding
paragraph and would not necessarily identify all deficiencies in internal control over financial reporting that might
be significant deficiencies or material weaknesses. However, as discussed below, we have identified certain matters
involving the Fund’s internal control over financial reporting that we consider to be significant deficiencies.

A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent or detect misstatements on a timely basis. A
significant deficiency is a control deficiency, or combination of control deficiencies, that adversely affects the
Fund’s ability to initiate, authorize, record, process, or report financial data reliably, in accordance with generally
accepted accounting principles, such that there is more than a remote likelihood that a misstatement of the Fund’s
financial statements that is more than inconsequential will not be prevented or detected by the Fund’s internal
control over financial reporting. We consider the matters discussed in the following paragraphs to be significant
deficiencies.

During our audit of the Fund’s financial statements, we identified deficiencies related to internal control over the
preparation, analysis, and monitoring of financial information to support the efficient and effective preparation of
financial statements. Because of the deficiencies noted, we believe the Fund’s financial management system does
not meet the requirements of an integrated financial management system, as defined in OMB Circular A-127, with
respect to “consistent internal control over data entry, transaction processing, and reporting.” We also believe that
the Fund is not in compliance with the system design requirements necessary to comply with internal and external
reporting requirements. These requirements include the requirements for financial statements to be prepared in
accordance with the form and content rules prescribed by OMB, and reporting requirements prescribed by Treasury,
and to monitor the financial management system to ensure integrity of financial data.




                                                           49 

As defined in OMB Circular A-127, “a financial management system encompasses automated and manual
processes, procedures, controls, data, hardware, software, and support personnel dedicated to the operation and
maintenance of system functions.” Such financial management systems shall be designed to provide for effective
and efficient interrelationships between software, hardware, personnel, procedures, controls, and data contained
within the systems. These integrated systems shall have the following characteristics: (1) common data elements;
(2) common transaction processing; (3) consistent internal control over data entry, transaction processing and
reporting; and (4) efficient transaction entry.

With respect to system requirements in the area of financial reporting, OMB Circular A-127 requires that an “agency
financial management system shall be able to provide financial information in a timely and useful fashion to: (1)
support management’s fiduciary role; (2) support the legal, regulatory, and other special management requirements of
the agency; (3) support budget formulation and execution functions; (4) support fiscal management of program
delivery and program decision making; (5) comply with internal and external reporting requirements, including, as
necessary, the requirements for financial statements prepared in accordance with the form and content prescribed by
OMB and reporting requirements prescribed by Treasury; and (6) monitor the financial management system to ensure
integrity of financial data.”

Our assessment is based upon various factors noted during our audit, including the following:

1.	 The actuarial liability for Medicare-eligible retiree benefits, as of September 30, 2008 and 2007, includes
    approximately $71 billion (14% of total) and $75 billion (14% of total), respectively, of amounts reflecting the
    actuarial present value of projected direct-care costs of benefits to be provided by the Military Treatment
    Facilities (MTF), managed by the Services, to eligible participants in the Fund. Additionally, the reported
    amounts of program revenues and cost for the year ended September 30, 2008, include approximately $3.3
    billion and $1.6 billion, respectively, and for the year ended September 30, 2007, include approximately $3.7
    billion and $1.8 billion, respectively, of amounts related to direct-care costs.
    MTF-related amounts of direct-care costs are estimated by the Fund’s actuaries and others using data extracted
    from various service-specific financial, personnel, and workload systems within DoD. With respect to extracted
    data, the MTFs do not currently have compliant, transaction-based accounting systems, applying common and
    consistent business rules, in a manner envisioned by the DoD’s planned Standard Financial Information
    Structure (SFIS) While activity-based costing techniques are used to estimate the program costs related to the
    MTFs, the costs being allocated cannot be related to specific appropriations, and there is insufficient evidence
    that adequate controls exist and have been implemented to ensure the completeness, validity, recording, and cut­
    off of the costs reported. Additionally, there is insufficient evidence that adequate controls exist and have been
    implemented to ensure the timeliness and accuracy of the medical record coding processes at the MTFs, which
    is a significant factor in the allocation processes.

    Therefore, the procedures in place to determine the allocated costs of direct-care provided by the MTFs are
    inadequate to ensure presentation of the direct-care costs in conformity with accounting principles generally
    accepted in the United States of America.

2.	 The costs of health care provided directly by the DoD for Fund participants and beneficiaries represent
    significant input to the development of the actuarially determined health care liabilities of the Fund, as well as to
    the determination of amounts contributed by the Services for their active duty participants. These costs are
    incurred in the multitude of MTFs managed by the Services in various locations. The Fund makes prospective
    payments to the Services based on estimates of these direct-care costs in order to support the operations of the
    MTFs on an ongoing basis.

    The health care cost data from the MTFs provided for the estimation process is aggregated or derived from
    information in both financial and non-financial systems within the Services that has not been audited. The
    MTF-level data is based upon budget execution processes, rather than accrual-based accounting. There is
    insufficient evidence that appropriate and consistent cut-off of accounting activity occurs at the MTF-level.
    During 2008, the Fund had not yet implemented appropriate and sufficient levels of management control and
    reconciliation processes to ensure the adequacy and completeness of the data required for its financial reporting
    and actuarial valuation processes.


                                                           50 

    We did note that the Fund performs annual retrospective reconciliation reviews of the MTF level-of-effort data,
    for the purposes of comparing the prospective payments provided to the MTFs for care of the Fund’s participants
    and beneficiaries, versus the results of the budget execution process. The results of the reconciliations are used
    in the determination of prospective budgetary requirements to support the MTFs’ operations, as required by DoD
    Instructions.

3.	 Certain general and application electronic data processing (EDP) controls at certain computer processing
    locations used by the Fund do not support the reliable processing of financial information within the related
    business cycles. Our review disclosed deficiencies in the design or operation of controls related to: (1) EDP
    security policies, procedures, and configurations; (2) business continuity arrangements; and (3) network and
    database change management activities, which could adversely affect the Fund’s ability to record, process, and
    summarize its financial information and protect sensitive data in accordance with all appropriate requirements.

    Because disclosure of detailed information about EDP weaknesses may further compromise controls, we are
    providing no further detail here. Instead, as requested by the Office of Inspector General (OIG), the specifics
    will be presented in a separate, limited distribution report, which will address other control deficiencies
    involving the Fund’s internal control over financial reporting and other matters identified during our audit.

A material weakness is a significant deficiency, or combination of significant deficiencies, that results in more than
a remote likelihood that a material misstatement of the financial statements will not be prevented or detected by the
entity’s internal control over financial reporting. Our consideration of the internal control over financial reporting
would not necessarily disclose all matters in the internal control that might be significant deficiencies and,
accordingly, would not necessarily disclose all significant deficiencies that are also considered to be material
weaknesses. However, of the significant deficiencies noted above, we consider the observations with respect to
direct-care costs, discussed at items 1 and 2, to be material weaknesses.

With respect to internal control relevant to data that supports reported performance measures on page 5 of
Management’s Discussion & Analysis, which accompanies the financial statements, we obtained an understanding
of the design of significant internal control relating to the existence and completeness assertions, as required by
OMB Bulletin No. 07-04. Our procedures were not designed to provide assurance on the internal control over
reported performance measures and, accordingly, we do not express such an opinion.

                                    COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether the Fund’s financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, contracts, and
agreements, noncompliance with which could have a direct and material effect on the determination of financial
statement amounts and certain other laws and regulations specified in OMB Bulletin No. 07-04. As part of our
work, we performed tests of compliance with the Federal Financial Management Improvement Act (FFMIA),
Section 803(a) requirements. However, providing an opinion on compliance with those provisions was not an
objective of our audit and accordingly, we do not express such an opinion. The results of our tests disclosed
instances of noncompliance or other matters that are required to be reported under Government Auditing Standards
and the requirements of OMB Bulletin No. 07-04, and which are summarized in the following paragraphs:

1.	 The EDP systems utilized by the Fund are not compliant with OMB Circular A-127, Financial Management
    Systems. The Circular requires that Federal financial systems provide complete, reliable, consistent, and useful
    information on a timely basis. Our procedures identified deficiencies in the design and operation of certain
    EDP controls that may increase the risk of unauthorized access, modification, or loss of sensitive programs and
    data, which could compromise the ability of the systems to provide reliable financial data.

2.	 While the general ledger system utilized by the Fund is compliant with the United States Standard General
    Ledger, it is not transaction-based, nor is it derived from an integrated financial system.




                                                          51 

3.	 The financial management systems utilized by the Fund do not comply substantially with the requirements for
    Federal financial management systems set forth in OMB Circular A-130, in that they do not fully, efficiently,
    and effectively support the Fund’s efforts to:

         •	   Prepare financial statements and other required financial and budget reports using information
              generated by the financial management systems
         •	   Provide reliable and timely financial information for managing current operations
         •	   Account for assets reliably, so that they can be properly protected from loss, misappropriation, and/or
              destruction
         •	   Do all of the above in a way that is consistent with Federal accounting standards and the Standard
              General Ledger.

These conditions, in the aggregate, result in significant departures from the requirements of OMB Circulars A-123,
A-127, and A-130.

The significant deficiencies and material weaknesses identified above, with respect to internal control over financial
reporting, indicate that the Fund is not fully compliant with the requirements of OMB Circulars A-123 and A-127
and the FMFIA.

                                    VIEWS OF RESPONSIBLE OFFICIALS

We provided a draft of this report to representatives of the DoD OIG, the Audit Committee, and management of the
Fund, who then provided us with technical comments, which we incorporated as appropriate. The Audit Committee
and management of the Fund expressed their continuing commitment to address the deficiencies identified in this
report.

                                                  DISTRIBUTION

This report is intended solely for the information and use of the DoD OIG, the Audit Committee, management of the
Fund, other Defense Organizations, OMB, Government Accountability Office, and the United States Congress, and
is not intended to be and should not be used by anyone other than these specified parties.




October 31, 2008
Alexandria, Virginia




                                                          52 

